<html>
<title> - STEM Education In Action: Communities Preparing for Jobs of the Future</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                       STEM EDUCATION IN ACTION:
                       COMMUNITIES PREPARING FOR
                           JOBS OF THE FUTURE

=======================================================================

                             FIELD HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                       MONDAY, SEPTEMBER 26, 2011

                               __________

                           Serial No. 112-40

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



       Available via the World Wide Web: http://science.house.gov


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
70-586PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               GABRIELLE GIFFORDS, Arizona
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARCIA L. FUDGE, Ohio
MICHAEL T. McCAUL, Texas             BEN R. LUJAN, New Mexico
PAUL C. BROUN, Georgia               PAUL D. TONKO, New York
SANDY ADAMS, Florida                 JERRY McNERNEY, California
BENJAMIN QUAYLE, Arizona             JOHN P. SARBANES, Maryland
CHARLES J. ``CHUCK'' FLEISCHMANN,    TERRI A. SEWELL, Alabama
    Tennessee                        FREDERICA S. WILSON, Florida
E. SCOTT RIGELL, Virginia            HANSEN CLARKE, Michigan
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY

















                            C O N T E N T S

                           September 26, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     7
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    11

                           Witnesses: Panel I

Dr. Cora Marrett, Deputy Director, National Science Foundation
    Oral Statement...............................................    13
    Written Statement............................................    15

Mr. James Henry Russell, President, Texarkana College
    Oral Statement...............................................    19
    Written Statement............................................    21

Dr. Brad Johnson, President, Northeast Texas Community College
    Oral Statement...............................................    29
    Written Statement............................................    30

Dr. C.B. Rathburn, President, Texas A&M University-Texarkana
    Oral Statement...............................................    35
    Written Statement............................................    38

                          Witnesses: Panel II

Ms. Pam Kennedy, Vice President of Human Resources, CHRISTUS St. 
  Michael Health System
    Oral Statement...............................................    46
    Written Statement............................................    48

Mr. Myron Barnett, Human Resource Manager, International Paper
    Oral Statement...............................................    52
    Written Statement............................................    54

Mr. Denis Washington, Chairman, TexAmericas
    Oral Statement...............................................    55
    Written Statement............................................    58

              Appendix: Answers to Post-Hearing Questions

Dr. Cora Marrett, Deputy Director, National Science Foundation...    66

Mr. James Henry Russell, President, Texarkana College............    69

Dr. Brad Johnson, President, Northeast Texas Community College...    71

Dr. C.B. Rathburn, President, Texas A&M University-Texarkana.....    74

Ms. Pam Kennedy, Vice President of Human Resources, CHRISTUS St. 
  Michael Health System..........................................    76

Mr. Myron Barnett, Human Resource Manager, International Paper...    78

Mr. Denis Washington, Chairman, TexAmericas......................    79

 
                       STEM Education In Action:
              Communities Preparing for Jobs of the Future

                              ----------                              


                       MONDAY, SEPTEMBER 26, 2011

                  House of Representatives,
               Committee on Science, Space, and Technology,
                  Sullivan Performing Arts Center, Texarkana, Texas

    The Committee met, pursuant to call, at 10:00 a.m., at the 
Sullivan Performing Arts Center, 3941 Summerhill Road, 
Texarkana, Texas, Hon. Ralph M. Hall [Chairman of the 
Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                       STEM Education in Action:

              Communities Preparing for Jobs of the Future

                       monday, september 26, 2011
                        10:00 a.m. - 12:00 p.m.
           sullivan performing arts center, texarkana, texas

1. Purpose

    On Monday, September 26, 2011, the Committee on Science, Space, and 
Technology will hold the third in a series of hearings to highlight 
Science, Technology, Engineering, and Math (STEM) education activities 
across the Nation, their role in inspiring and educating future 
generations, and their contribution to our future economic prosperity. 
The purpose of this hearing, STEM Education in Action: Communities 
Preparing for Jobs of the Future, is to highlight the role of community 
colleges, specifically the importance of their partnerships and 
contributions to the local economy, workforce, and other aspects of the 
community.

2. Witnesses

                                Panel 1

    <bullet>  Dr. Cora Marrett, Deputy Director, National Science 
Foundation

    <bullet>  Mr. James Henry Russell, President, Texarkana College

    <bullet>  Dr. Brad Johnson, President, Northeast Texas Community 
College

    <bullet>  Dr. C.B. Rathburn, President, Texas A&M University-
Texarkana

                                Panel 2

    <bullet>  Ms. Pam Kennedy, Vice President of Human Resources, 
CHRISTUS St. Michael Health System

    <bullet>  Mr. Myron Barnett, Human Resource Manager, International 
Paper

    <bullet>  Mr. Denis Washington, Chairman, TexAmericas

3. Overview

    <bullet>  An educated and well-trained workforce is essential to 
the economic prosperity of the United States. Today's employers are 
seeking specific skills and all levels of education to meet their 
needs. Communities that successfully marry these education needs with 
community workforce needs help stimulate the local economies.

    <bullet>  Community colleges provide a tremendous service to the 
communities they serve. In many cases, they serve as the primary 
postsecondary education and training resource for the community. In all 
cases, they contribute to the community's economic prosperity, 
providing employers with an educated and trained pipeline of workers. 
\1\
---------------------------------------------------------------------------
    \1\ http://www.aacc.nche.edu/AboutCC/Trends/Pages/
communitycollegesintheircommunities.aspx

    <bullet>  The National Science Foundation (NSF) is an independent 
federal agency created by Congress in 1950 ``to promote the progress of 
science''. With an annual budget of about $6.9 billion (FY 2010), it is 
the primary source of federal funding for non-medical basic research, 
providing approximately 40 percent of all federal support, and serves 
as a catalyst for science, technology, engineering, and mathematics 
---------------------------------------------------------------------------
(STEM) education improvement at all levels of education.

    <bullet>  Texarkana College is a two-year, comprehensive community 
college that offers educational opportunities in traditional academic 
studies, occupational/technical programs, and workforce development and 
community services.

    <bullet>  Northeast Texas Community College is a two-year community 
college that offers students the opportunity of academic studies, 
workforce programs, distance learning, and partnerships with four-year 
universities.

    <bullet>  Texas A&M University-Texarkana is a comprehensive 
regional university that provides citizens a convenient opportunity to 
earn a four year, graduate, and/or a doctoral degree.

    <bullet>  The CHRISTUS St. Michael Health System serves the 
Texarkana region of Arkansas, Texas, Louisiana, and Oklahoma. The 
Catholic, faith-based health system, CHRISTUS St. Michael, was 
established in 1916 by the Sisters of Charity of the Incarnate Word. 
CHRISTUS St. Michael offers a full scope of expansive health care 
services.

    <bullet>  The Texarkana Mill, part of the International Paper 
Company, produces bleached board for packaging, and hot and cold drink 
cupstock and folding cartons. Through the International Paper Company 
Foundation the Texarkana Mill is very involved in the local community 
and its success.

    <bullet>  TexAmericas Center serves as a business and industry 
resource for expanding business needs by offering varied 
transportation, abundant natural and human resources, an adaptable 
infrastructure and a climate and culture that understands, appreciates 
and encourages growth on more than 20,000 acres.

4. Background

STEM Education and the Federal Government

    A consensus exists that improving STEM education throughout the 
Nation is a necessary condition for preserving our capacity for 
innovation and discovery and for ensuring U.S. economic strength and 
competitiveness in the international marketplace of the 21st century. 
The National Academies Rising Above the Gathering Storm report placed 
major emphasis on the need to improve STEM education. This 
recommendation was embraced by the House Science, Space, and Technology 
Committee following the issuance of the report and was included in the 
2007 America COMPETES Act. The 2010 America COMPETES Reauthorization 
Act continues this emphasis.
    In total, the FY 12 Budget Request devotes $3.4 billion to STEM 
education programs across the federal government. \2\ The 2010 America 
COMPETES Reauthorization Act called for the creation of a National 
Science Technology Council (NSTC) Committee on STEM Education to 
coordinate federal STEM investments. The first-year tasks of the 
Committee are to create an inventory of federal STEM education 
activities and develop a five-year strategic federal STEM education 
plan. The inventory, as well as a similar Government Accountability 
Office (GAO) survey requested by the Committee on Education and 
Workforce, is currently underway and results are expected before next 
year. These inventories should include community college investments.
---------------------------------------------------------------------------
    \2\ White House Office of Science and Technology Policy, 
Innovation, Education, and Infrastructure: Science, Technology, STEM 
Education, and 21st Century Infrastructure in the 2012 Budget, p. 2.
---------------------------------------------------------------------------
    President Obama has made strengthening community colleges a 
priority of his Administration. The American Recovery and Reinvestment 
Act provided more than $3.5 billion in Pell Grants to low-income 
students at hundreds of community colleges across the country; over $1 
billion in workforce training programs at community colleges to prepare 
students for work in clean energy industries; health IT, and dislocated 
worker training; and $40 million in work study funds to help community 
college students pay for their education through employment.
    In addition, the FY 12 Budget request identifies a number of new 
community college initiatives and existing programs at a number of 
federal agencies including the Departments of Labor, Education, and 
Veterans Affairs.
    Within this Committee's jurisdiction, the FY 12 budget request for 
community colleges at the National Science Foundation is $100 million. 
This funding would be used to expand and strengthen efforts to engage 
community colleges through several core research and development 
programs, including the Advanced Technological Education (ATE); 
Transforming Undergraduate Education in Science, Technology, 
Engineering, and Mathematics (TUES); the Louis Stokes Alliances for 
Minority Participation (LSAMP); and the Tribal Colleges and 
Universities Program (TCUP).
    While not specific to community colleges, other funding 
opportunities at the Foundation that will also contribute to enhancing 
community college programs are the Scholarship for Service program 
(SfS); the STEM Talent Expansion program (STEP), Teacher Learning for 
the Future (TLF), Math and Science Partnership (MSP), and Scholarships 
in Science, Technology, Engineering, and Mathematics (S-STEM).
    In the 112th Congress, the Science, Space, and Technology Committee 
will continue to hold oversight hearings and briefings on STEM 
education activities across the federal government and will closely 
monitor the scope and findings of both the NSTC and the GAO federal 
STEM education inventories.

Communities and Jobs for the Future

    Technology and innovation have kept the American economy strong in 
the face of increasing competition in the global marketplace. There is 
a significant role of American science and engineering graduates in 
helping this country's economy keep pace with this rapid change. As 
industry moves toward producing more high-tech products and employing 
technology intensive production methods, the need for technologically 
and scientifically literate individuals at all levels of the workforce 
will increase. Thus, the need for science, technology, engineering, and 
mathematics (STEM) training is now as important for the worker running 
the production process, as it is for the researcher who created that 
process.
    Many reports find that there are not enough people with the 
requisite skills to fill the jobs that remain. Encouraging more high 
school graduates to get some form of postsecondary education is also 
important. Today, some high school graduates are lucky enough to land 
entry-level jobs in which they can get career skills through on-the-job 
training (for instance, machinists, carpenters, and executive 
assistants). Expanding opportunities for more high school graduates 
through vocational schools and community colleges is crucial. According 
to the Job Creation and America's Future report by the McKinsey Global 
Institute \3\, employers are having trouble filling some positions 
because they cannot find qualified applicants. Some 40 percent of 
survey respondents who say that they plan to hire in the next 12 months 
have had positions open for six months or longer because they could not 
find the right applicant. More broadly, nearly two-thirds report they 
routinely have openings that are difficult to fill. Of these, 
management was the most frequently cited type of position. The most 
difficult occupational categories to fill were in science and 
engineering, followed by computer programmers and information 
technology workers. The growing shortage of workers with sought-after 
skills is reflected in compensation. Wages for engineers and architects 
grew by 3.5 percent annually from 2002 to 2009, compared with an 
average of 2.9 percent for all occupations.
---------------------------------------------------------------------------
    \3\ Job Creation and America's Future, McKinsey Global Institute, 
pg. 48 http://www.commerce.gov/sites/default/files/documents/2011/july/
jobs_creation_and_americas_future.pdf
---------------------------------------------------------------------------
    The importance for communities to work together as a whole to 
overcome this economic hurdle is becoming ever so evident. Community 
and technical college programs can produce the kind of graduates 
industry needs to fill the open positions. These institutions have long 
been involved in training technicians for the Nation's workforce, but 
there is now a growing awareness that community colleges can provide 
industry with the adequately skilled workers it needs. Serving as 
models for technology training, the National Science Foundation (NSF) 
Advanced Technology Education (ATE) centers at community colleges 
develop tech-training programs that prepare students for a wide variety 
of jobs in high-tech settings. This program funds 39 centers throughout 
the country that offer both training for local community college 
students and a research enterprise to develop and disseminate best 
teaching and curriculum practices for fields such as biotechnology, 
chemical processing, advanced manufacturing, and information 
technology. These programs rely on a partnership between the community 
college and industry, and throughout the country other institutions can 
look to ATEs as they develop their own training programs.
    Feedback from both colleges and industry personnel on their 
partnerships, in general, and ATEs, specifically, is positive. 
Employers like and readily hire the graduates of these programs. 
However, community colleges face many challenges in creating and 
developing tech-training programs. Perhaps the most vexing is that 
these programs often face low enrollment. Since community colleges 
typically incur a much greater expense in capital costs and maintenance 
for these programs, they can find it difficult to begin or continue a 
program without a large number of students, especially on their 
relatively tight operating budgets. Both community college personnel 
and industry representatives claim that careers in manufacturing are 
either unknown by or considered undesirable by students and their 
parents.
    An issue very closely related to attracting large numbers of 
students to the program is the inadequate math and science backgrounds 
of many students enrolled in community colleges. Community colleges 
must attract students to these programs, while also taking measures to 
remediate basic skills, most commonly in math. Another challenge the 
community college must address is balancing its role as a ``feeder'' 
institution for four year programs with its ability to deliver 
specialized training for industry. Though articulation between tech-
training programs and university is not always possible, community 
college administrators and tech-training faculty are increasingly 
embracing the need to endow their technology students with problem-
solving skills and an ability and willingness to learn so as to enable 
them to navigate the inevitably changing skill needs of industry. 
Highly involved industry partners are a common theme among the most 
successful tech-training programs. Representatives from both industry 
and colleges claim that a willingness to devote time and resources to 
the partnership is crucial for the program to yield the most qualified 
graduates.
    Chairman Hall. All right. If everybody's ready, the 
Committee on Science, Space, and Technology will come to order.
    And I want to welcome today's hearing entitled, ``STEM 
Education and Action: Communities Preparing for Jobs of the 
Future.'' We have our packets up here and it contains the 
written testimony of these very wonderful members here who have 
given their time and their ability and their background. The 
way we determine what legislation we write in Washington, D.C., 
is based on the testimony we get from folks like you-all, 
because you know more about what you're doing than we do, and 
from that, we glean the ingredients into the legislation. And 
all your testimony will be read and will be going into the 
Congressional record. It will be there for a hundred years. 
Maybe Congress can get around to it before then, but they will 
all have this, have your testimony to read again, and it will 
be discussed many times on--in the Committee room and on the 
floor of Congress and in the Rules Committee. But thank all of 
you for being here.
    I guess I want to say another word or so here for some 
folks that are here. I want to thank President and Adrienne 
Rathburn, first, for my meal last night. And that's number one, 
you know with most politicians, feed us real good and treat us 
nice, and you sure do and you did, President of A&M Texarkana. 
I want to thank the youngsters who are here.
    I have Bess Caughran, who is staff member for Mrs. Eddie 
Bernice Johnson. She is the Ranking Member of Science, Space 
and Technology. And by the way, there's just a small line 
between our districts in Dallas and Rockwall and Texarkana. We 
work together very well. I have Janet Poppleton, who is my 
chief of staff, has been for 12 or 15 years, something like 
that. Mele Williams, Mele is a staff director. I have chief of 
policy, Aaricka Aldridge, here to my left. And Marjorie 
Chandler is in the audience; and Marjorie's one of the best 
things that ever happened to me when I got Bowie County into my 
district. We're very lucky to have her here and advise me. And 
she and Buddy work day and night, and you're lucky and I'm 
lucky to have them. And I thank them very much.
    I will start out by welcoming everyone here. I had--that 
for the children--yeah. Yes. I don't want to miss this. I want 
to welcome the students from Texas High, Arkansas High. Maybe 
hear from you as I call you out. Students from Texas High, 
Arkansas High, Liberty-Eylau High, Texarkana High--Texarkana 
High and Texarkana A&M. How about that? Welcome to all of you. 
Good morning. Good morning to all of you.
    I want to welcome everyone to the Committee on Science, 
Space, and Technology hearing on STEM Education and Action: 
Communities Preparing for Jobs for the Future.
    I had the pleasure of hosting a field hearing in Texarkana 
three years ago. And Bart Gordon was the Chairman because the 
democrats were in control of the House then, and he was a very 
fine Chairman. I served in the position Mrs. Johnson serving in 
now as Ranking Member, because I was Republican and we were in 
the minority. Republicans are temporarily, maybe for the next 
ten years, are in charge up there now. But if things do change, 
Mrs. Johnson will be the Chairman, and I'm sure she'll remember 
this meeting because, to me, Texarkana, this county, this area 
initiated the first thrust for STEM for youngsters when land 
was given by people who were very generous that created an 
elementary school here were first, so far as I'm concerned. And 
I want this meeting to highlight that because others will have 
other meetings directing the same thrusts for STEM, Science, 
Space, Technology hearing, and they'll be reminded where it all 
started. We were the first and we were the best. And I'm sure 
pleased that Eddie Bernice would have the time to drive down 
from Dallas and be with us here today. We work together very 
well.
    I know that--like to officially welcome our Committee's 
Members here, and I know that we're glad to have these Members 
representing the Great State. STEM education's been a top 
priority for both of us on this Committee. And I'd like also to 
thank the Texarkana Independent School District for providing 
the use of this very wonderful new building and auditorium for 
our hearing. And I want to thank all the witnesses for taking 
time out of their busy schedule to testify before us today. I'm 
grateful to have such a wonderful community here in my own 
district.
    As you may know, our Committee has jurisdiction of 
essentially all non-defense and non-medical research and 
development activities in the nation. This includes oversight 
of agencies like NASA, the Department of Energy's Office of 
Science, the National Oceanic and Atmospheric Administration. 
That's NOAA, which includes the National Weather Service, 
portions of the Department of Homeland Security, the National 
Institute of Standards and Technology, and the National Science 
Foundation, which provides approximately 40 percent of all non-
medical basic research at American colleges and universities, 
including support for STEM education.
    And I'm pleased and honored that Dr. Cora Marrett, Deputy 
Director of the National Science Foundation, could be with us 
here today. Thank you very much. Dr. Marrett attended one of 
our very first hearings here at the Marshall Elementary School 
three years ago; and we're honored to have her back today to 
discuss the important role of NSF in helping promote STEM 
education and careers.
    STEM education and a trained, skilled workforce are very 
closely connected, and all or both are very essential elements 
for U.S. economic prosperity. They should be a top priority for 
every community, much less--and an awful lot like they do here 
in Texarkana. We're a pattern they could follow. Not only do 
community colleges make up almost half of all the U.S. 
graduates, but they also create a pathway to four-year 
universities. And through valuable partnerships with business, 
industry, other schools and local government and economic 
development entities, these help to create a competitive and 
economically successful community.
    I was in the Texas Senate for ten years before going to 
Congress, and I think one of the most important bills we passed 
there was the Community College Concept. And there's a story 
behind it because you had to know the makeup of the Senate at 
that time. We were even a divided Senate then. Though there was 
one republican, all the rest of us were democrats, but we still 
were divided. And we were especially divided in San Antonio 
because the Senate--the Senator there was Senator Red Berry, 
whose background had been that he was a driver for Al Capone 
when he was younger. And then a professor there, Professor 
Bernal, they would not vote together. They would not vote 
alike. And they voted one after the other. Bernal voted first 
because we voted alphabetically and then Berry. And keep in 
mind they would not vote alike. And we had to promise--it was a 
close vote. It was tied 15 to 15. I had Bernal promise me that 
he would vote for it, and I had Red Berry promise me that he 
would vote for it. When we got to their line, Bernal voted 
first. He voted for it. And when Red Berry saw he voted for it, 
he naturally voted against it. And we lost the first vote. And 
then we had to sit Red Berry down and teach him how to renew 
the vote by which the vote was taken, had to write it out for 
him because he had to do it because he voted in the majority. 
He did that. And I had to go over and hold Bernal's hand to get 
him to pass and let Red go ahead and vote. And he voted, and 
then came back and voted. And it was 16 to 15 is the way this 
passed. And I think it's probably one of the most meaningful 
and important legislation in the ten years I was down there, 
because it did a lot of things that we'll all be discussing 
later. But the thing it did for me, I got to keep my kids in 
the home two years longer and let them go to junior college 
there on the edge of Dallas.
    But I know that, and I've had the opportunity to learn 
about the Texarkana community efforts behind the creation of 
the Martha & Josh Morriss Mathematics & Engineering Elementary 
School and their generosity at the field hearings three years 
ago. And I'm so impressed with all of you and what you've done 
here, and I look forward to learning your postsecondary 
education efforts to fulfill your workforce needs and the role 
each of you play in accomplishing this important feat. And I 
thank you again for being with us today.
    I have used my five minutes. Was I exactly on five minutes? 
And we want to stay within that because we have those of you 
who have to catch transportation out of here at noon. I think 
we're going to stay pretty close.
    Chair now recognizes Mrs. Johnson for an opening statement. 
I've explained to you that she's the lead Democrat on the 
entire Committee. She is what they call Ranking Member.
    Ms. Johnson, thank you. I recognize you for five minutes.
    [The prepared statement of Chairman Hall follows:]
              Prepared Statement of Chairman Ralph M. Hall
    Good Morning. I want to welcome everyone this morning to the 
Committee on Science, Space, and Technology Field Hearing on STEM 
Education in Action: Communities Preparing for Jobs of the Future. I 
had the pleasure of hosting a Field Hearing in Texarkana three years 
ago, and it is my pleasure to return as Chairman of the Committee for 
our second field hearing to explore the challenges of promoting 
science, technology, engineering, and math (STEM) education for our 
students.
    I would like to officially welcome our Committee's Ranking 
Democratic Member and my good friend, Eddie Bernice Johnson, to the 
fourth district of Texas and to thank her for making the journey for 
this important hearing. I know we are both glad to be Members 
representing this great state, and STEM education has been a top 
priority for both of us on this Committee.
    I would like to also thank the Texarkana Independent School 
District for providing the use of this wonderful new building and 
auditorium for our hearing, and I want to thank all of the witnesses 
for taking time out of their busy schedules to testify before us today. 
I am grateful to have such a wonderful community here in my own 
district.
    As you may know, our Committee has jurisdiction of essentially all 
non-defense and non-medical research and development activities of the 
Nation. This includes oversight of agencies like NASA; the Department 
of Energy's Office of Science; the National Oceanic and Atmospheric 
Administration, which includes the National Weather Service; portions 
of the Department of Homeland Security; the National Institute of 
Standards and Technology; and the National Science Foundation, which 
provides approximately 40 percent of all non-medical basic research at 
American colleges and universities, including support for STEM 
education.

    I am pleased and honored that Dr. Cora Marrett, Deputy Director of 
the National Science Foundation, could be with us today. Dr. Marrett 
attended our first field hearing at Morriss Elementary School three 
years ago, and we are honored to have her back today to discuss the 
important role of NSF in helping promote STEM education and careers.
    STEM education and a trained, skilled workforce are closely 
connected and are both essential elements for U.S. economic prosperity. 
They should be a top priority for every community, much like they are 
here in Texarkana. Not only do community colleges make up almost half 
of all U.S. undergraduates, but they also create a pathway to four-year 
universities. Through valuable partnerships with businesses, industry, 
other schools and local government and economic development entities, 
these help to create a competitive and economically successful 
community.
    I had the opportunity of learning about the Texarkana community 
efforts behind the creation of the Martha and Josh Morriss Mathematics 
& Engineering Elementary School at the field hearing three ago. I am so 
impressed with all that you are doing here, and I look forward to 
learning of your post-secondary education efforts to fulfill your 
workforce needs and the role each of you play in accomplishing this 
important feat. Thank you all again for joining us today.

    Ms. Johnson. Thank you very much, Mr. Hall. And I'm 
delighted that you've called this meeting here in Texarkana. 
It's a little challenge to get here, but it's always nice to 
visit. It's a very nice town, and I want to thank the 
Texarkanians for ordering this welcome this morning.
    We hope that we will leave with information that will 
address successful STEM partnerships in the region, and discuss 
the unique role of community colleges in both strengthening the 
local technical workforce and providing a pathway to continued 
education in the STEM fields. We do have a STEM education 
crisis in this country, and we must do something to address it 
if we hope to compete in the 21st century and the global 
economy. Year after year, test after test, our students are 
lagging behind their international peers in tests of science 
and math. The most recent National Assessment of Education 
Progress study found that less than half of our nation's 
students are demonstrating solid academic performances and 
proficiency in science. This is a startling statistic when you 
consider the many recent reports warning that our competitive 
edge will be lost if we do not vastly improve STEM education in 
this country. More and more U.S. companies are moving abroad. 
We think this is because of trade, but it's because they cannot 
find the highly skilled workforce they need here at home. A 
recent study estimates that in the year 2018, 8 million jobs in 
the U.S. economy will require a college degree in one of the 
STEM fields. If we want these jobs to stay here in the U.S. and 
in Texas, we must continue to invest in STEM education for our 
future workforce.
    The STEM education problem is a complex one that no entity 
alone can solve. There is a role for all key stateholders, 
including federal and state governments, local school 
districts, higher education and formal education organizations 
and industry. The role of community colleges in particular is 
increasingly becoming a part of the national competitiveness 
conversation. Community colleges have an important role to play 
in preparing students for highly technical jobs upon graduation 
and in providing a pathway for higher education in STEM fields. 
For many students, community colleges can be more affordable 
and accessible than a four-year institution. Additionally, 
community colleges are highly diverse institutions with great 
potential to stimulate interest in STEM among other 
historically underrepresented groups. Many minority students 
with great potential for success in STEM disciplines begin 
their postsecondary education in a community college.
    I'm interested in hearing from the witnesses today about 
the role they see community colleges playing in broadening 
participation in STEM and what experiences they've had in 
promoting diversity in local community college and STEM 
programs.
    We also know that community colleges face unique 
challenges, including issues of K through 12 math and science 
remediation. I am interested in hearing from witnesses about 
how partnerships with K through 12 students' schools and other 
efforts that have helped to address this issue.
    In reviewing the written testimony of the witnesses, I 
notice that many of you have received federal grants and 
partnered with many of the federal agencies. Especially in 
these tough budget times, it is critical that we continue to 
invest in federal programs that leverage resources locally and 
can be sustained long after the initial federal support. We 
just must do more with less. I'd be interested in hearing from 
our witnesses about what federal support your institution has 
received, what made you decide to seek out federal funding and 
what impact federal grants and partnerships have had in helping 
to create and grow effective STEM programs in East Texas.
    To truly tackle the STEM education challenge, we need the 
involvement of all stakeholders, of entire communities. I look 
forward to hearing more about the great success you are having 
in this region and to learning from your experience here in 
Texarkana.
    I thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Ranking Member Eddie Bernice Johnson
    Thank you, Mr. Chairman. I'm happy to be here in Texarkana to learn 
more about successful STEM partnerships in the region and to discuss 
the unique role of community colleges in both strengthening the local 
technical workforce and providing a pathway to continued education in 
the STEM fields.
    We have a STEM education crisis in this country and we must do 
something to address it if we hope to compete in the 21st century 
global economy. Year after year, test after test, our students are 
lagging behind their international peers in tests of science and math 
aptitude.
    The most recent National Assessment of Educational Progress (NAEP) 
study found that less than half of our Nation's students are 
demonstrating solid academic performance and proficiency in science. 
This is a startling statistic when you consider the many recent reports 
warning that our competitive edge will be lost if we do not vastly 
improve STEM education in this country.
    More and more U.S. companies are moving abroad because they can't 
find the highly skilled workforce they need here at home. A recent 
study estimates that in the year 2018, 8 million jobs in the U.S. 
economy will require a college degree in one of the STEM fields. If we 
want those jobs to stay in the U.S., and in Texas, we must continue to 
invest in STEM education for our future workforce.
    The STEM education problem is a complex one that no one entity 
alone can solve. There is a role for all the key stakeholders, 
including federal and state governments, local school districts, higher 
education, informal education organizations, and industry.
    The role of community colleges in particular is increasingly 
becoming a part of the national competitiveness conversation. Community 
colleges have an important role to play in preparing students for 
highly technical jobs upon graduation, and in providing a pathway for 
higher education in the STEM fields. For many students, community 
colleges can be more affordable and accessible than four year 
institutions. Additionally, community colleges are often highly diverse 
institutions with great potential to stimulate interest in STEM among 
historically underrepresented groups.
    Many minority students with great potential for success in the STEM 
disciplines begin their postsecondary education in a community college. 
I'm interested in hearing from our witnesses today about the role they 
see community colleges playing in broadening participation in STEM and 
what experiences they've had in promoting diversity in local community 
college STEM programs.
    We also know that community colleges face unique challenges, 
including issues of K-12 math and science remediation. I'm interested 
in hearing from our witnesses about how partnerships with K-12 schools 
and other efforts have helped to address this issue.
    In reviewing the written testimony of the witnesses, I noticed that 
many of you have received federal grants and partnered with many of the 
federal agencies.
    Especially in these tough budget times, it is critical that we 
continue to invest in federal programs that leverage resources locally 
and can be sustained long after the initial federal support. I'd be 
interested in hearing from our witnesses about what federal support 
your institution has received, what made you decide to seek out federal 
funding, and what impact federal grants and partnerships have had in 
helping to create and grow effective STEM programs in East Texas.
    To truly tackle this STEM education challenge we need the 
involvement of all stakeholders and of entire communities. I look 
forward to hearing more about the great success you are having in this 
region, and to learning from your experience here in Texarkana.

    Chairman Hall. I think this thing works now. That's what I 
think.
    And I thank you, Ms. Johnson. The gentlelady from Texas 
yields back.
    At this time, I want to introduce our first panel of 
witnesses and stress the importance of trying to stay within 
five minutes, if you can, but, of course, we're not going to 
hit the gavel on you no matter how much time you take because 
we're too grateful to you for being here. But time is 
important, and it's important kind of like it was to a fellow 
who was going to heaven and he was talking to Saint Peter, 
trying to tell him why he ought to let him in. He said, ``Well, 
why should you go to heaven?'' And he said, ``Well, I've done a 
lot of good things for good people.'' He said, ``Well, name me 
some of them.'' He said, ``Well, for instance,'' he said, ``I 
was driving down the highway and I looked over there and I saw 
a bunch of motorcycles. And I saw guys with tattoos all of 
them, and they had a little farm girl about 19--18, 19 years. 
They were pushing her from to the other, and they were hugging 
her, and then pushing her on.'' And he said, ``I walked over 
there and got her and put her behind me. And I got the leader 
and I slapped him in the face three or four times. I jerked a 
ring out of his ear. And I said, ``Now any of the rest of you 
want some of this?'' And Saint Peter said, ``Well, when did all 
that happen?'' He said, ``About 15 minutes ago.''
    We won't hold you that close, but we want you to stay with 
the time, if you can.
    At this time, I'd like to introduce our first panel of 
witnesses. Our first witness, as I've already acknowledged, is 
Dr. Cora Marrett, Deputy Director, National Science Foundation.
    Dr. Marrett, let me express how much we're really looking 
forward to the upcoming NSF day at Texas A&M Commerce on 
November 14th.
    For our academic witnesses today and for any other college 
representatives who may be in the audience, NSF will be in town 
to host a workshop on the programs they fund and to assist 
schools in learning how to apply for grants. And that's a lot 
of what will come out of this hearing today, the instructions 
on how to do that. I encourage all of you to put that date on 
your calendar.
    Our second witness is Mr. James Henry Russell, President of 
Texarkana College. We call him James Henry--full first and 
second name here in East Texas. To my wife I'm Ralph Moody 
Hall, but she never called me Ralph Moody unless she was mad at 
me--but they call you James Henry, don't they, all the time?
    He's President of Texarkana College. He's also worked with 
the Texas Independent School District for 17 years before he 
served a number of positions, including superintendent.
    Our third witness is Dr. Brad Johnson, President of 
Northeast Texas Community College. He, too, has 17 years of 
education experience. And how important education is, it's 
important to prevent mobs in the streets and petitions to 
federal courts. That's what education is, teaching us how to be 
together and how to live together and set examples for the 
young people that you're teaching.
    And you've worked in various roles from educator to 
administrator and development office. We thank you for being 
here.
    This is written ``our final witness.'' I don't like to ever 
say ``our final witness.'' I'm the oldest guy in Congress. I'm 
88 years old, and my kids say, ``Papa, doesn't it hurt you to 
say, are you really 88 years old?'' And I tell them it sounds 
better than, ``Don't he look natural?''
    But that's our final witness for today, and that's what I 
always want to say, for this panel, Dr. C.B. Rathburn, 
President of Texas A&M University in Texarkana. He's married to 
Adrienne. I had dinner with them last night, and I love this 
couple. And I appreciate everything they do. Dr. Rathburn was 
previously president of Savannah Technical College in Georgia, 
for over seven years.
    And as our witnesses know, spoken testimony is limited to 
five minutes, after which, the Members of the Committee will 
have five minutes each to ask questions.
    I now recognize our first witness, Dr. Marrett, for five 
minutes to present your testimony, and thank you.

   STATEMENT OF DR. CORA MARRETT, DEPUTY DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Marrett. Thank you. Thank you very much, Chairman Hall 
and to Ranking Member Johnson, the distinguished members of the 
panel, the audience, very distinguished audience. I am very 
pleased to be here today to speak to you about community 
colleges and the role that the National Science Foundation 
plays in supporting the important mission of community colleges 
to U.S. education. As you know, the National Science 
Foundation, or NSF, is the primary federal agency supporting 
research at the frontiers of knowledge across all fields of 
science and engineering and at all levels of education in 
science, technology, engineering, and mathematics, or STEM. 
NSF's mission, vision and goals are designed to maintain and 
strengthen the vitality of U.S. science and engineering, both 
in research and education. For after all, research and 
education fuel the innovation on which the nation builds. The 
intersection of research and education advance U.S. global 
leadership and cultivate a reserve of human capital and talent, 
something we both know so well.
    This reserve enables the U.S. to respond rapidly and 
effectively to a range of anticipated and unexpected national 
challenges. This occurs through the contributions made to 
communities often through community colleges, for community 
colleges are essential for community development.
    It is a pleasure to be in the 4th Congressional District of 
Texas, and to be back, I should say, to the district, for this 
is home to several outstanding institutions of education at 
every level. But one route to this leadership is through 
community colleges. As you well know, these institutions 
provide a gateway to millions of Americans to good jobs and a 
better life. They also lead to STEM careers and here are a few 
facts: One, is that community colleges are an increasingly 
important part of the education landscape. In 2010, some 8 
million students were enrolled in the nation's nearly 1200 
community colleges. It is also the case that community colleges 
focus on teaching and they respond to educational and workforce 
needs of local communities. Even though community colleges have 
some of the highest teaching loads across higher education, the 
class sizes are generally smaller, giving students the 
opportunity then for significant faculty contact.
    As Ranking Member Johnson noted, another fact about 
community colleges is that they are diverse, and indeed, it's 
this appeal to a broad range of students that holds promise to 
diversify the STEM workforce of the nation. This 
diversification will help the nation sustain our leadership in 
science, technology, engineering and mathematics, leadership 
that is critical in the increasingly competitive global economy 
we face.
    Another fact about community colleges, community colleges 
are a bargain and they're accessible. And finally, community 
colleges prepare workers for important jobs. As already noted, 
the jobs that are emerging are jobs that require skills, 
especially middle level skills, and these are the skills that 
community colleges help support. NSF then recognizes the value 
of community colleges for STEM fields. We've made our budget 
request for 2012 and really hope that we'll be able to invest 
over a hundred million dollars in projects for 2012, projects 
that will focus on STEM career pathways. These would include 
technician education, entry into four-year institutions and 
investments that will build knowledge about how successfully to 
achieve the goals. Time does not allow me to elaborate on our 
plans, so I encourage you to read my complete written statement 
to learn more about NSF's very important and successful STEM 
programs, including the Advanced Technological Education 
Program, or ATE, which has been our primary source of support 
for engagement with community colleges. I've indicated today 
about the support of the ATE program to various parts of Texas, 
and the community college system of Texas. The testimony 
identifies two programs that are supported through other parts 
of the National Science Foundation. Our efforts to support 
community colleges through the ATE program span renewable 
energy, welding, analyzer technician opportunities, cyber 
security and general STEM forces that all lead into technician 
education and professional development for students and 
faculty.
    In conclusion, let me note that community colleges 
contribute a great deal to the STEM education pathway and 
workforce. Not only is NSF committed, but takes seriously our 
role to ensure the continued success of community colleges. It 
is then my pleasure, my privilege, not only to come to share 
developments at the National Science Foundation, but to learn 
of those taking place in this region and to determine or help 
determine what might be even more effective ways in which the 
National Science Foundation can play the role that it's been 
given to advance research and education across all fields of 
science and engineering. So I thank you again for the 
invitation. I thank everybody for the time, and I will, when 
appropriate, welcome any questions that might be made of me. 
Thank you.
    [The prepared statement of Ms. Marrett follows:]
   Prepared Statement of Dr. Cora Marrett, Deputy Director, National 
                           Science Foundation
    Chairman Hall and distinguished Members of the Committee, I am 
pleased to be here today to speak with you about community colleges and 
the role that the National Science Foundation (NSF) plays in supporting 
their important mission in U.S. education. As you know, NSF is the 
primary federal agency supporting research at the frontiers of 
knowledge, across all fields of science and engineering and at all 
levels of education in science, technology, engineering and mathematics 
(STEM). Its mission, vision, and goals are designed to maintain and 
strengthen the vitality of the U.S. science and engineering enterprise. 
As part of the overall national R&D enterprise, the basic research and 
education activities supported by NSF are vital and integrated 
components that enable the United States to advance economically, and 
they provide the know-how to allow the nation to respond rapidly and 
effectively to a range of anticipated and unexpected challenges. 
Communities and community colleges are an essential element of this NSF 
enterprise.
    It is also a pleasure to be in the Fourth Congressional District of 
Texas, home of several outstanding institutions of higher education. As 
Congressman Hall's website states,

    <bullet>     In recent years, a growing consensus has emerged 
regarding the importance of science, technology, and innovation as the 
key driver of long-term economic growth and improved quality of life in 
America. Technological progress fueled by investments in research and 
development is estimated to be responsible for as much as half of U.S. 
economic growth since World War II. It is critical that we continue our 
efforts in STEM education to ensure that the next generation of high-
tech industries and products are developed by researchers in the United 
States. America has always been the leader in cutting edge technology 
and innovation--and we must do all we can to ensure our strong footing 
as a global economic leader.

    One route to this leadership travels through community colleges. As 
President Barack Obama noted at an October 2010 White House Summit on 
community colleges, these institutions provide ``a gateway to millions 
of Americans to good jobs and a better life.'' They also often lead to 
science, technology, engineering, and mathematics (STEM) careers. 
Before discussing NSF's investment in community colleges, it might be 
helpful to remind ourselves of a few facts about this increasingly 
important sector of the education system:

    <bullet>  Community colleges are an increasingly important part of 
the education landscape. According to American Association of Community 
Colleges (AACC) statistics, in 2010 there were 1,173 community colleges 
in the U.S. enrolling 8 million students (43% of all students in 
postsecondary education). Community colleges awarded 605,267 
associate's degrees and 325,452 certificates in 2010.

    <bullet>  Community colleges focus on teaching. The community 
college mission focuses on teaching, and these institutions respond to 
the educational and workforce needs of their local communities. 
However, some community college faculty maintain undergraduate research 
programs, and more faculty are using research as a learning tool in 
community colleges (Cejda and Hensel, 2009. Undergraduate Research at 
Community Colleges, Council on Undergraduate Research). Community 
college faculty have the highest teaching loads in all of higher 
education, and there are no graduate or upper division students to 
serve as teaching assistants. However, class sizes are generally small, 
and students have significant contact hours with faculty. Students who 
transfer from a community college to a four-year institution generally 
perform at least as well or better than the students who began their 
college experience on the four-year campus.

    <bullet>  Community colleges are diverse. Community colleges 
attract a broader range of students in terms of race, gender, age, 
veteran status, working status, and first-generation college attendees 
than other higher education sectors. Community college student 
populations thus better align with racial/ethnic proportions within the 
general U.S. population and hold promise to help diversify the STEM 
workforce and tap the nation's entire human capital talent base. With 
95% of community colleges having open admissions, they provide a 
pathway for many Americans to academic certificates, associate degrees, 
and transition to four-year institutions, and to realizing the American 
dream.

    <bullet>  Community colleges are a bargain and are accessible. 
According to the College Board, tuition and fees at community colleges 
in 2009-10 averaged $2,544, compared to four-year public schools at 
$7,020 for in-state and $18,548 for out-of-state, and compared to 
$26,273 for private not-for-profit four-year schools, and $14,174 for 
for-profit four-year schools. In fact, the College Board report noted 
that the net cost of community college--after subtracting grant aid--
was negative, so many students are not paying even the modest $2,544 
total. In 2007-2008, 62% of community college graduates graduated from 
public two-year schools without debt, and another 23% had borrowed less 
than $10,000. In addition, 95% of the American population lives within 
25 miles of a community college.

    <bullet>  Community colleges prepare workers for important jobs. 
According to a National Governors Association Issue Brief, titled 
``Using Community Colleges to Build a STEM-Skilled Workforce'' (June 
24, 2011), it is estimated that between the years 2008 and 2018 nearly 
47 million anticipated ``middle skill'' jobs will open; 64% of these 
will require at least some college education and strong basic skills in 
math, science, and other technical areas.

    <bullet>  There is increasing research interest in the value and 
potential of community colleges. For example, a special issue in 2010 
of the Journal of Women and Minorities in Science and Engineering was 
devoted exclusively to the ``Role of Community Colleges: Broadening 
Participation among Women and Minorities in STEM.'' The objectives were 
to: ``(1) Address the diverse functions of community colleges and their 
roles in providing access and opportunity for women and ethnic 
minorities to pursue STEM education, (2) Understand the role of 
community colleges as a pathway to a baccalaureate degree and beyond in 
STEM fields, (3) Investigate the role of career and technical education 
programs in community colleges in educating and training the 21st 
century workforce,'' and (4) discuss implications for policy and 
practice, and future research.

    NSF recognizes the valuable services that community colleges 
provide for the nation, especially in STEM fields. As stated in its FY 
2012 Budget Request to Congress, NSF plans to expand and strengthen its 
efforts to engage community colleges through many of its programs; the 
Directorate for Education and Human Resources, for example, is hoping 
to invest $100,000,000 in community college projects in 2012. These 
investments will focus on STEM career pathways including technician 
education and entry into four-year institutions as well as build 
knowledge about how to successfully achieve these goals.

The Advanced Technological Education Program

    NSF's Advanced Technological Education (ATE) Program has 
historically been the primary program for engagement with community 
colleges. In 2011 NSF introduced systematic coordination of ATE program 
expertise with a number of other programs in the Directorate for 
Education and Human Resources (EHR). The ATE program, which has been in 
place since 1994, is the core community college activity at NSF, 
bringing coherence and synergy to other relevant undergraduate 
education programs within EHR. It aims to prepare the next generation 
of technicians for tomorrow's STEM workforce, so in this sense the 
focus is very specific. The ATE program currently supports proposals in 
three major tracks: ATE Projects, ATE Centers, and Targeted Research in 
Technician Education. In ATE Projects and Centers, two-year colleges 
have a leadership role and work in partnership with business and 
industry, universities, secondary schools, and government agencies to 
design and carry out model workforce development initiatives. The 
Targeted Research in Technician Education program supports research on 
technician education, employment trends, the changing role of 
technicians in the workplace, and other topics that advance the 
knowledge base needed to make technician education programs more 
effective and more forward-looking. Fields of technology supported by 
the ATE Program include, but are not limited to: agricultural 
technology, biotechnology, chemical technology, civil and construction 
technology, computer and information technology, cybersecurity and 
forensics, electronics, energy (both traditional and renewable) 
environmental technology, geospatial technology, manufacturing and 
engineering technology, marine technology multimedia technology, 
nanotechnology, telecommunications, and transportation technology. 
Given this breadth of coverage, ATE will be in a position to work 
across disciplines and programs to expand the qualified applicant pool 
of community colleges through expanded outreach, capacity building, and 
knowledge building activities. The ATE leadership continues to develop 
ways to attract new institutions to the program. One such activity is 
the inclusion in the ATE solicitation of a focus area for institutions 
that have either never submitted a proposal to ATE or have not 
submitted a proposal in ten years. Over the four years that this focus 
area has been available, approximately 120 new institutions have 
submitted proposals to the ATE program.
    The ATE program has supported 61 awards within the state of Texas 
since its inception. Currently, there are 12 active awards, and one of 
the ATE Centers, the Convergence Technology Center, is housed at Collin 
County Community College. ATE also supports the ATE Center, GeoTech, at 
Del Mar College as well as a range of projects in Texas that span 
renewable energy, welding, analyzer technician opportunities, 
cybersecurity, general STEM courses that lead into technician education 
programs, and professional development opportunities for faculty. The 
ATE television project (see http://www.atetv.org/) recently posted its 
first episode of the season (on biotechnology). It highlights ATE 
active awards and provides insights into specific career paths. The 
webpage includes links to related episodes, information for parents, 
students and educators, links to the ATE Centers, an active blog and 
information other resources.
    Enhancing capacity for community colleges is a priority across the 
Foundation. Nearly all of the directorates have programs or activities 
that include a community college focus. For example, the Directorate 
for Geosciences has supported a community workshop for faculty from 
two-year colleges that led to creation of a centralized resources 
website (Carleton.edu/geo2yc), and for the past two years has funded 
travel grants for faculty and students from two-year schools to attend 
the annual meeting of the Geological Society of America. In the 
Engineering Directorate, the Research Experiences for Teachers (RET) 
program includes community colleges, and community colleges are among 
the partners in the large Engineering Research Centers. Across NSF key 
drivers for community college activities include:

      Serving the needs of underrepresented minorities: According to a 
July 2011 NSF National Center for Science and Engineering Statistics 
(NCSES) InfoBrief, women were more likely than men to have taken 
community college courses. In addition, among science, engineering, and 
health (SEH) bachelor degree recipients in 2006 and 2007, 56% of 
Asians, 57% of blacks, 59% of Hispanics, 68% of American Indians/Alaska 
Natives, and 50% of whites had attended community colleges. According 
to a 2005 National Research Council (NRC) study, ``in effect, community 
colleges have become an educational pipeline for underrepresented 
minorities entering the higher education system.'' \1\ According to the 
Institute for Higher Education Policy, ``Community colleges provide 
vital access to low-income students by offering affordable education, 
open enrollment, course convenience, and geographic proximity.'' NSF's 
Louis Stokes Alliances for Minority Participation (LSAMP) program 
focuses on preparing community college students to transfer to four-
year baccalaureate-producing institutions. The goal for these students 
is to become STEM B.S. recipients and ultimately progress to graduate 
studies in STEM disciplines.
---------------------------------------------------------------------------
    \1\ National Research Council, 2005. Enhancing the Community 
College Pathway to Engineering Careers.

      Another example of NSF's interest in community colleges is the 
Tribal Colleges and Universities Program (TCUP), which was established 
in 2001 to provide support for increased capacity for STEM educational 
programs in the Nation's tribal colleges, as well as many Alaska Native 
and Native Hawaiian-serving institutions of higher education. The TCUP 
eligibility pool includes over 40 institutions, many of which are in 
remote geographic areas, and most of which serve students in 
economically disadvantaged regions. Although the program emphasized 
information technology in its early days, it has evolved to support new 
degree programs in mathematics, science, pre-engineering, and, 
recently, engineering. Several of the two-year colleges that comprise 
the majority of the TCUP pool now offer four-year degrees in STEM 
fields such as computer engineering and environmental science--degrees 
with cultural relevance and local significance, as the students can 
graduate while remaining near home, and are then competitive for jobs 
in these fields that traditionally have gone to others outside the 
communities. The investment back in the community made by these 
---------------------------------------------------------------------------
graduates is incalculable.

      Providing pathways for STEM careers: NSF's NCSES reports that 
``over the academic years (AY) 2001 to 2007, the percentage of SEH 
graduates who had ever attended community college at some point in 
their studies remained fairly steady, at around 50% for bachelor's 
degree recipient and just under 45% for master's degree recipients.'' 
Many students enrolling in community colleges enter with specified STEM 
career goals, but find they lack the foundational skills needed to be 
successful. NSF will coordinate across programs that support community 
colleges to facilitate the implementation of successful models for 
developmental education. For example, the Bridge to Biotech program at 
the City College of San Francisco was developed with funds from NSF's 
Course, Curriculum and Laboratory Improvement (CCLI) program, which is 
now called Transforming Undergraduate Education in Science, Technology, 
Engineering and Mathematics (TUES). The San Francisco program is 
currently being adapted and implemented at other community colleges. 
NSF is hoping to coordinate with private foundations in this effort.

      Building the foundation for future STEM teachers: According to a 
recent report, ``more than 20% of all teachers begin their college 
careers at two-year institutions and nearly half of all teachers 
complete some of their science or mathematics courses there.'' \2\ 
Therefore, building strong STEM courses that articulate with four-year 
teacher preparation programs is vital in the preparation of a strong 
teaching workforce. Through its programs that focus on preparing 
teachers, such as NSF's Robert Noyce Teacher Scholarship program 
(NOYCE) and the proposed Teacher Learning for the Future (TLF) program, 
NSF will support efforts to build collaborations between two-year and 
four-year teacher training programs with a goal of helping to both 
increase the number of qualified teachers in pursuit of the 
Administration's goal--to increase the number of college graduates by 
50%--and to study the need for and to develop approaches for teacher 
training necessary for the 21st century. The ATE program also supports 
teacher education efforts, and a recent award is increasing the ability 
of secondary STEM teachers and students to learn collaboratively and 
apply STEM skills using information and communications technology 
(ICT). The project is housed in the National Center for Teacher 
Education (NCTE), a part of the Maricopa Community Colleges District.
---------------------------------------------------------------------------
    \2\ National Association of Community College Teacher Education 
Programs, 2008. The State of Affairs: Impacts and Implications of STEM 
Teacher Education at Two-Year Colleges.

      Ensuring smooth critical transitions: Transitions from secondary 
school to two-year colleges and from two-year colleges to four-year 
colleges are especially challenging in STEM fields. For example, recent 
work by the Carnegie Foundation for the Advancement of Teaching focuses 
on the serious issues in the mathematics preparation of community 
college students: ``Many students who attend community college begin 
unprepared to succeed in mathematics. . . Students are more likely to 
fail developmental mathematics than any other courses in higher 
education. Failure rates in individual developmental courses exceed 
35%, and two-thirds of students fail to complete the entire sequence of 
courses to which they are referred.'' (See http://
---------------------------------------------------------------------------
www.carnegiefoundation.org/problem-solving/developmental-math).

      At NSF, programs will coordinate their efforts to study key 
transitions and develop mechanisms to help students succeed in 
negotiating them. The National Academy of Sciences has received funding 
from ATE to conduct a study beginning in 2011 on the changing and 
evolving dynamic between two-year and four-year colleges and 
universities. Pathways through community colleges to STEM careers as 
well as transitions and articulations from secondary schools to 
community colleges and community colleges to four-year institutions are 
expected to be focus areas of this study. Results of the study will 
inform and support education pathways across educational levels and 
inform NSF's planning activities for community colleges.

      Boosting graduation rates: NSF will play a role in addressing the 
President's 2020 goal of producing the highest proportion of college 
graduates of any country by helping to increase the graduation rate of 
recipients of both associate and baccalaureate degrees in STEM 
disciplines. In addition to the strategies enumerated above, NSF will 
encourage proposals to its STEM education research programs that focus 
on better understanding matters such as the competencies needed by STEM 
students for successful transfer from two-year to four-year 
institutions; the performance of community college transfers compared 
to students who matriculate at four-year institutions; and the elements 
that contribute to student success and desire for STEM careers among 
community college students.

Conclusion

    Clearly, community colleges contribute a great deal to the STEM 
education pathway and resulting workforce. NSF remains committed to 
helping to ensure their continued success.
    Mr. Chairman, I want to thank you very much for holding this 
important hearing, and inviting me to testify. I would be pleased to 
answer any questions you may have.

    Chairman Hall. And I thank you. I thank you for your time, 
your own time. Thanks a lot.
    Your entire speech will be in the record for the Committee 
and for the Congressional record, and thank you for that.
    I now recognize what it says here, Mr. Russell, but I 
recognize James Henry--I've met him; I call him James Henry, 
and that's what everybody else calls him here--for five minutes 
to present his testimony.
    James Henry, thank you.

  STATEMENT OF MR. JAMES HENRY RUSSELL, PRESIDENT, TEXARKANA 
                            COLLEGE

    Mr. Russell. Chairman Hall and Ranking Member Johnson, 
first of all, thank you for taking the time out of your very 
busy schedule to talk with us here in Texarkana today. It is 
quite an honor to have all of you here.
    STEM education has made a major impact on this community 
over the last few years. I believe this community has prided 
itself on, not just putting a sign up on a building declaring 
STEM education, but actually changing what we do inside to 
prove that we are taking that to heart. I think you would be 
very proud of what you would see if you would walk through any 
of the STEM programs throughout the Texarkana community today.
    I am going to quickly address some of the topics that were 
sent to me last week. The first relates to how Texarkana 
College is helping the U.S. economy with STEM education. 
Texarkana College has been a vital part of this community since 
1927. We currently offer a wide variety of STEM pathways in 
both the academic and workforce education areas. Approximately 
50 percent of our most recent graduates or students that earn 
certificates did so in an area of STEM education. How we might 
help out the economy more than anywhere, though, is providing 
it in such an efficient way. The demand for community college 
services, as has been mentioned, is growing throughout this 
entire country. Students graduating today have way too much of 
a debt burden on them. We are so lucky in this area to have 
such efficient community colleges and one of the best-priced 
four-year universities that you're going to find anywhere in 
the nation. We are very lucky in the Texarkana area to have 
first class educational opportunities, but also to have them in 
such an efficient offering.
    Collaboration in STEM is another area that shines in our 
region. It is amazing what can be accomplished when you focus 
on student success, and that is what is happening in this area. 
Our Pre-K through 16 council in this area is one of the most 
productive that you will find anywhere. I want to highlight a 
new partnership that shows collaboration in the STEM area. 
Texarkana College recently opened a new facility at the 
TexAmericas Center. You'll hear a lot more about TexAmericas in 
just a few minutes. This facility will provide both academic 
and workforce opportunities. It is located right in the middle 
of our largest employer and has 20,000 acres available for 
future plans. This facility was put there to train our current 
workforce and to be ready to quickly adapt to provide training 
for any need that comes up in the future. The majority of the 
jobs in this area are STEM related at TC at TexAmericas. Our 
first training class graduated just two weeks ago, and listen 
to the partners that were involved in this: Texarkana College, 
TexAmericas Center, the United States Army, Texarkana Chamber 
of Commerce and Caterpillar Corporation. That's the very first, 
it's only been open for a month, and I can't wait to report on 
what the future holds.
    I want to move now to obstacles to students receiving STEM 
degrees and certificates. The number one obstacle that I see 
relates to students being ready for math their first year of 
college. Study after study will tell you that if a student is 
not successful in a college level math class that first year, 
the chance of them ever earning a degree or certificate 
dramatically goes down. Professional development, in my 
opinion, is one of the key ways that we can improve this in the 
future. There are many professional educators in this community 
that deserve to be in the record, but at the time, I want to 
highlight two, and hopefully they will be contacted. Rhonda 
Jameson with the Texarkana Independent School District and 
Jamie Ashby with Texarkana College are two incredible women 
that are doing a great job in this community changing the way 
that we teach in the classroom, and they can show a lot of 
people how to get STEM education relevant in the classroom.
    Ms. Johnson, I was very impressed to see on your website 
that you post an annual Science & Technology BrainTrust to 
highlight real life examples to students, and that is what 
we've got to have at such an early age. It has to be relevant 
to our students. One of the past speakers that you had was Dr. 
Ben Carson. He is one that we have studied for many years in 
Texarkana and would be thrilled to have him here, if you could 
ever help us with that. We sure would appreciate it.
    A passion and focus of several of us in this community has 
been to get more STEM graduates and for those graduates to 
reflect the diversity of this community. I have worked with a 
group called the Texas High School Project for the past four 
years. They are part of the Community Foundations of Texas and 
have been instrumental in bringing about quality STEM education 
in school districts across Texas, the past few years. And their 
headquarters is--Ms. Johnson, it may be in your area and it's 
very close to Congressman Hall's.
    I am very excited that they are soon announcing that they 
are moving to the community college realm. You will soon be 
hearing about staffable credentials and ways students can move 
in and out of a college environment while they move up in their 
earning opportunities. Students in today's world must have the 
opportunity to attend college for a short period of time, earn 
something, get a better job, come back, stack something else on 
top and get a better job. The traditional student life is 
changing, and we've got to have opportunities that meet for 
all. Texas High School Project, Dr. Reo Pruiett, an incredible 
great organization to learn from on quality STEM education. 
They have been an accelerator for STEM in the Texarkana area.
    Congressman Hall, in closing, I want to tell you thank you 
for what you have done for STEM education in this area. I have 
been just as excited as the kids every time you have brought an 
astronaut to Texarkana to inspire us. I love attending every 
Eagle Scout ceremony that you do. You always refer to somehow 
that it was Eagle Scouts that took this country to the moon and 
back in the '60s. If you looked at the front page of the 
Texarkana Gazette yesterday, you will see our board of trustees 
last week in a training session, watched a video from 1962, at 
Rice University, where President Kennedy entered this country 
into the race for the moon. It's a race that I think we all 
know that we won. It shows how important STEM education has 
been in the past to this country, and I think we all know that 
it is going to be the driver for the future.
    Chairman Hall and Ranking Member Johnson, thank you so much 
again for coming to Texarkana. Thank you for your support for 
STEM education. We look forward to working with you in the 
future.
    [The prepared statement of Mr. Russell follows:]
  Prepared Statement of Mr. James Henry Rusell, President, Texarkana 
                                College

Opening Remarks and History of Institution

    Texarkana College is an institution that has been a vital part of 
the Texarkana Community since 1927. During this almost century of 
service, Texarkana College has been the leader in post-secondary 
education in this area and has been the conduit for so many first time 
college students to break free from the straps of poverty and achieve 
something that truly opened doors many thought would never be possible. 
The role of Texarkana College has been, and continues to be, to provide 
the path to educational opportunity for a recent high school graduate, 
laid off worker, or someone that simply wants a better life or a new 
skill. Texarkana College's motto for the last few years has been that 
it is, ``A Great Place to Start or to Start Over.''
    TC has a history of leadership, from our faculty to our former and 
current student body, of excellence in STEM education. ``Man in his 
quest of knowledge and progress is determined and cannot be deterred.'' 
``Great tasks are accompanied with great difficulty.'' These are two of 
my favorite quotes from our President, John F. Kennedy, from his 
September 12, 1962 speech entering America into the race to the moon. 
In that speech, he stated that we must have the courage to overcome 
obstacles; he stated that we must pursue tasks not because they are 
easy but because they are hard. Texarkana College was a trailblazer in 
the fields of Science and Math even before the term ``STEM'' was ever 
coined--not because it was easy, but because it has been and continues 
to be our mission to prepare our students to overcome obstacles and 
achieve great things.
    Collaborations throughout our history have included national 
partners such as the NASA-funded NOVA (NASA Opportunities for Visionary 
Academics) Grant and the U.S. Corps of Engineers as well as state and 
local governments. One of our most well-known graduates, H. Ross Perot, 
has been a virtual pioneer in STEM developments on the national front. 
Dr. Mary Witt Hughes, a graduate of TC from the 1930s, was blazing 
trails for women in science as an orthopedic surgeon. Another graduate, 
John Tyler, in 1981, was the first person in the world to establish a 
satellite radio network with his company Satellite Music Network. 
Today, a current lead engineer for the development of space suits for 
NASA, Mr. Terry Hill, is an example of another Texarkana native--from a 
local high school and former 1990s student of Texarkana College--who 
persevered to overcome barriers to achieve his dream of becoming an 
aero-space engineer.
    Texarkana College was established in 1927 as a public junior 
college and as a branch of the Texarkana, Texas Public School Systems. 
The College experienced a slow but steady growth from 109 students in 
1927 until the end of World War II at which time it became increasingly 
apparent that the growth in enrollment caused by returning veterans 
demanded expansion. Accordingly, a bond issue was included in a 1948 
election to the tune of $40,000 to purchase a new campus and to finance 
construction. Twenty acres were purchased and construction of an 
administration building and gymnasium began in 1950. In October of 1951 
the college relocated to its present site on Robison Road with an 
enrollment of 589 students.
    Today, Texarkana College (TC) enrolls more than 10,000 individuals 
annually. The TC Mission Statement reads: Texarkana College prepares 
individuals for success in life by providing quality opportunities for 
workforce education and academic advancement. TC is a comprehensive 
community college located in the border city of Texarkana, TX and 
offers Associate and Applied Associate Degrees, Distance Education, 
Dual Credit, Workforce Education, Certificates, and Continuing 
Education courses. Since 1971, Texarkana College has collaborated with 
other post-secondary higher education institutions to provide seamless 
transfer of credit for students. Texas A&M University-Texarkana (TAMU-
T) is our community partner and affords students with access to 
bachelor and graduate degree programs. TC's service areas consist of 
all of Bowie County, a large portion of Cass County and a small portion 
of Red River County in Texas. In addition, we are a border county with 
Miller County in Arkansas and serve these residents as well. TC is an 
open admission institution located in the twin cities of Texarkana, 
Texas/Arkansas serving a unique geographic area where four states 
(Texas, Arkansas, Louisiana, and Oklahoma) meet.
    Our student profile is twenty-eight percent economically 
disadvantaged with seventy-five percent (75%) Caucasian, and twenty-
five percent (25%) minorities. Sixty-one percent (61%) of students are 
younger than twenty-five and sixty-five percent (65%) are female. In FY 
2010, 751 degrees and certificates were awarded. Of which 28.8% were 
awarded to minorities. Approximately sixty percent (60%) were part time 
enrollees with 40% enrolled full time; approximately 70% of our student 
population is enrolled in academic programs while 30% are in workforce 
education programs. Almost 83% of our total academic students are 
employed after graduation and/or go on to pursue a four-year degree. 
Graduates of our workforce education programs have a slightly higher 
rate with almost 85% employed and/or enrolled.
    Texarkana College has made a commitment in the last two years to 
establishing a culture of evidence for the entire campus by becoming an 
Achieving the Dream institution. As we move forward, knowledge gained 
and information and data shared through this nationwide network of 
community colleges will be a driving factor in insuring that Texarkana 
College remains focused on fulfilling its mission: To prepare 
individuals for success in life by providing quality opportunities for 
workforce education and academic advancement. In May, 2011, Texarkana 
College was selected as one of the top 120 community colleges in the 
nation from over 1000 community colleges nationwide to compete in Round 
2 of The Aspen Prize for Community College Excellence which seeks to 
accelerate efforts to improve community college student outcomes and 
shine a spotlight on community colleges that deliver exceptional 
student results through the development of high-quality measures and 
benchmarks for assessing student outcomes. Texarkana College is very 
proud to have been recognized and included in the Achieving the Dream 
and Aspen Prize community of institutions nationwide seeking to bring 
about transformation in community college student success.

Section I:Role of TC in the U.S. economy

    Texarkana College has a solid working relationship with Workforce 
Solutions Northeast Texas, the regional office of the Texas Workforce 
Commission. Realizing that one of Texarkana College's greatest 
contributions to our regional economy is preparing a skilled workforce 
for our employers, the institution strives to promote the attainment of 
certificates in technical fields that lead to employment in the local 
market. TC has proven that historically we have had great success in 
the award of certificates in technical fields that lead to jobs. TC 
students from the 2004-2005 graduating cohort receiving a certificate 
earn an average wage of $32,635. For students who graduated with an 
Associate's Degree from Texarkana College in 2004-2005, their 2010 
Annualized earnings are $38,613.
    The college takes an active role in collecting data on labor market 
training demands by participating and hosting regional planning summits 
with professionals from the fields of healthcare, advanced 
manufacturing and technology. The nine-county area served by Workforce 
Solutions Northeast Texas has a broad and diverse manufacturing base. 
One of the primary employers in this arena is the Red River Army Depot 
(RRAD). RRAD is located 18 miles west of Texarkana. The Depot, which 
was established in1941, repairs, and converts combat/tactical wheeled 
vehicles and operates the U.S. Department of Defense's only road wheel 
and track-shoe rebuild manufacturing facility. Many contractors support 
the work at RRAD including Day & Zimmerman, URS Corporation, Raytheon, 
M2 Services, BAE, and L-3 Corp. Adjacent to RRAD is the TexAmericas 
Center. In 1998, the Red River Redevelopment Authority was chartered as 
a Special Purpose District by the Texas Legislature to transform former 
military land and buildings into a privately held industrial park. This 
industrial park is now known as the TexAmericas Center. RRAD and its 
affiliated tenants at the TexAmericas Center currently employs 5,458 
people, including federal civilian employees (3,403), tenant 
activities/workers (1,004), active duty military (3), workers employed 
by contractors (784) and 264 others not elsewhere classified.
    TC recently established a 19,000 sq. ft. training center at the 
TexAmericas Center development park. With support from a recent Texas 
Military Preparedness grant funded through the Texas Governor's Office, 
this training center specializes in training dislocated and new workers 
in heavy equipment operation, mechanics, welding, machinery and related 
skills. Training at this site began in Summer, 2011. The skills being 
taught at this facility were identified in direct response to 
employers' request and include: robotics and process automation; 
instrumentation technology; Programmable Logic Controller; advanced 
welding/pulse welding; electromechanical, instrumentation and 
maintenance technologies (multi-craft), solid modeling and design, and 
integrated systems technology as well as diesel engine and transmission 
diagnostics and repair. These courses lead to certificates in the 
specified field and meet regional labor demand.
    Texarkana USA serves as the medical technology and health care 
industry hub for the Ark-La-Tex region. In the 1950's, Texarkana 
College began the first Associate Degree Nursing program for community 
colleges in the State of Texas and was later the first community 
college in the nation to receive National League for Nursing 
accreditation. TC is a leading producer of highly trained nursing and 
EMT/Paramedic workforce personnel in the region. The TC Nursing Program 
has an above-average passing rate of 96% of students taking the Texas 
Board of Nursing licensure exam for Associate Degree Nursing (RN) and a 
93% passing rate for Vocational Nursing students.

Section II:TC Collaborative Partners

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Section III: Barriers to STEM Success/TC Involvement in K-12 STEM 
                    Education

    To keep a finger on the pulse of the vitally important healthcare 
industry, Texarkana College has recently participated in two sequential 
studies to identify variables that have led to a nurse and healthcare 
shortage in Northeast Texas. It was determined that students are not 
graduating at a rate sufficient to keep pace with the demand for a 
skilled workforce. Texarkana College has taken steps to identify 
students most at-risk and help nursing and health occupation students 
remain in college and overcome barriers that keep them from persisting. 
Criteria for identification of at-risk students focused on the 
following variables: reading comprehension, math scores, Anatomy & 
Physiology grades, family support, and working more than sixteen hours 
a week.
    Texarkana College has implemented a system to identify ``at-risk'' 
in-coming nursing students by asking them to complete a survey to 
determine methods of intervention to assist them with persistence and 
completion. Intervention methods include counseling that addressing 
stress, anxiety, time management, family support, critical thinking, 
test-taking skills, and lecture class participation strategies. 
Programs also conducted an intensive one-on-one test remediation for 
students who failed their first test in the Fundamentals of Nursing 
course by using the Missildine Exam Diagnostic Tool. In addition, 
through our partnership with Texas A&M University-Texarkana, nursing 
students have access to expanded counseling services to assist with 
academic, personal, and financial counseling. As a result of the 
aggressive outreach measures in place through the Health Occupations 
department at Texarkana College, the Nursing Program has an above-
average passing rate of 96% of students taking the Texas Board of 
Nursing licensure exam for Associate Degree Nursing (RN) and a 93% 
passing rate for Vocational Nursing students.
    As an Achieving the Dream institution, Texarkana College has made 
the transition to data driven decision making. Programs across the TC 
campus are using data to evaluate their services or programs and 
outcomes. Our data showed that one of the areas that hinder student 
success is the developmental math sequence. In response, the TC math 
faculty has created three innovative curriculum concepts based on 
current best practices to prevent students from losing their math 
momentum--Modular Math, Integrated Intermediate and College Algebra, 
and Math Boot Camp.
    All of these curriculum changes are designed to move students 
through the sequence more quickly into college credit bearing 
coursework and toward completion of a degree, certificate or transfer 
status. One part of the math initiative involves the widespread 
implementation of collaborative learning techniques and technology. The 
math initiative will impact all students enrolling in developmental 
mathematics courses and college level mathematic courses which equates 
to approximately 2000 or more students annually.
    All three mathematics interventions are designed to improve 
successful completion rates in the developmental math program. Students 
placing into the developmental math series are less likely than their 
counterparts to successfully complete a college credit mathematics 
course or even to persist in college enrollment due to the length of 
time it may take to complete the developmental math coursework. The 
data show achievement gaps tied to the following subgroups: ethnicity 
(African American), Pell, gender (male), age (18-19). However, this 
intervention targets the academically underprepared student population 
(based upon their placement into the developmental math sequence) in 
its entirety. As a result, the needs of these subgroups will be 
represented when they fall within the targeted population.
    The Mathematics Department and Institutional Research office will 
assess the effectiveness of these changes through persistence and 
successful course completion rates for all developmental math courses, 
College Algebra, and the sequence collectively, disaggregated by 
standard characteristics, and compare it with baseline data with 
ongoing treated versus non-treated sections of each course. Also, 
success rates for Student Learning Outcomes established for each course 
will be compared in treated versus non-treated sections. In addition, 
course enrollment rates throughout the implementation process will be 
tracked for comparison of treated versus non-treated sections. Surveys 
will be administered each semester in each course to both students and 
faculty to evaluate the level of satisfaction and engagement in the 
treated versus non-treated sections. Each semester these data will be 
shared with key stakeholders to improve the decision making process and 
ultimately improve and transform student success in mathematics at TC.
    Texarkana College contributes to K-12 STEM education in many 
diverse ways. Three primary contributions are in pre-service teacher 
preparation, in-service teacher professional development, and 
sponsorships of student led activities for TC students to collaborate 
with public schools students and for public school students to compete 
in cutting edge national events.
    TC STEM faculty members are leaders both locally and across the 
state in pre-service teacher preparation and in-service teacher 
professional development programs. Key mathematics faculty members from 
TC have in the past eighteen years served on advisory boards at the 
state level in establishing guidelines for the mathematical preparation 
of pre-service elementary, middle and high school teachers and in 
developing guidelines to improve the STEM preparation of public high 
school students for college and career readiness.
    These math faculty members have received ongoing professional 
development as statewide trainers for Texas Education Agency approved 
initiatives in mathematics professional development and incorporated 
current best practices into the mathematics curriculum at TC, as well 
as provided professional development in both content development and 
appropriate pedagogy to in-service teachers across Northeast Texas--
actually across the state.
    One of our senior math faculty members has twice been selected as a 
master mathematics trainer for the State of Texas, has collaborated 
with public school mathematics teachers at all K-12 levels and 
partnered with the Region 8 Education Service Center to deliver 
training in best practices in mathematics and science education through 
the grant funded Texas Regional Collaborative for Science, Mathematics 
and Technology Excellence. Through this same faculty member, TC has 
provided grant funded professional development opportunities to area 
educators in math and science on the application of graphing technology 
and calculator based laboratories and other hand-held data collection 
devices. This math faculty member also compiled and co-wrote a high 
school math curriculum adopted by many school districts across the 
State of Texas on integrating workforce based agricultural science 
areas with algebra to improve underperforming student populations' 
performance on statewide assessments in mathematics.
    In addition, Texarkana College partners with the Red River Council 
of Teachers of Mathematics (a National Council of Teachers of 
Mathematics bi-state affiliate group) and Texas A&M University-
Texarkana to host on our campus Project STEAM (Successfully Training 
Educators As Mathematicians)--a regional mathematics professional 
development conference hosted about every three years since 1994 and 
serving approximately 450-800 regional educators from K-12, two-year 
and four-year institutions, along with pre-service educators from 
participating higher education institutions in Texas and Arkansas.
    Furthermore, three senior science faculty members have served as 
Instructional Team Members for the Texas Regional Collaborative for 
Science, Mathematics, and Technology Excellence for the past twelve 
years to lead innovation in classroom practices for area public school 
science educators in biology, chemistry and physics. Two of those 
science faculty and the previously mentioned mathematics faculty member 
were awarded a NASA-funded grant, NOVA (NASA Opportunities for 
Visionary Academics), to transform the higher education curriculum for 
pre-service teachers at all levels in math and science to incorporate 
best practices use of technology in the STEM classroom. These faculty 
members received opportunities to train at NASA facilities in Houston, 
TX, and at Cape Canaveral, FL, with other leading scientists and 
educators around the nation on cutting edge applications of technology. 
This training was implemented in TC STEM classrooms to help pre-service 
teachers learn to use technology as an avenue to provide a more 
realistic opportunity to explore math and science concepts in a hands-
on, interactive way--thus allowing students to approach these concepts 
as mathematicians and scientists would approach them. The long-term 
impact will be realized in public school classrooms across the region 
as these teachers graduate and implement innovative teaching practices 
to engage and inspire students in STEM fields.
    Two student led activities in the STEM fields at TC involve the 
Chemistry Club and Earth Club. The TC 3 Club (Chemistry Club), an 
affiliate of the American Chemical Society (ACS), has been recognized 
by the ACS as ``Outstanding Chapter'' for the last thirteen years. 
Nationwide, approximately only thirty chapters out of seven hundred 
receive that special designation from the ACS. The TC Chemistry Club 
appears in the In Chemistry Magazine and the Chemical and Engineering 
News, and has received the ``Green Chapter Award'' for the last five 
years--one of only two two-year colleges that have received these 
awards in recent history. Due to the award winning efforts of the club 
and its student participation successes, one of its sponsors was made a 
``Fellow'' in the American Chemical Society.
    In Summer, 2011, the TC 3 Club participated in the TC Kids College 
STEM Week activities though exhibits and demonstrations to area twelve 
to fourteen year old students. The club provides many service 
activities including water monitoring of the Sulphur River Basin, 
tutoring, demonstrations at area high schools and for the public 
through the mall. The Sulphur River Authority was founded in 1985 by an 
act of the Texas Legislature. Since 1999, our chemistry club students, 
Dr. Mike Buttram and Patti Harmon, Professors of Chemistry, have tested 
water in the Sulphur River Basin as either a sub-contractor or 
contractor for the Sulphur River Basin Authority. These contracts are 
administered through a contract between the College and Sulphur River 
Basin Authority. This testing monitors any pollution or discharges in 
the Sulphur River Basin by private, industrial and governmental 
entities, which includes the Sulphur River, the tributaries to the 
Sulphur River, both streams and creeks, and Wright Patman Lake. This 
contract is for a two year period with a positive cash flow implication 
of roughly $40,000 annually to the College, which is used for work-
ships, scholarships, and internships for our Chemistry students and the 
purchase of both supplies and equipment for the Chemistry Department.
    The TC Earth Club receives recognition annually for the Adopt-a-
Highway Texas Department of Transportation project and also for the 
Texas Stream Team water quality monitoring group. In 2010-2011, they 
were honored for 20 years of service with an all-expenses-paid trip to 
Houston, Texas, with accommodations at the Hyatt-NASA, and were asked 
to present their research to all state monitors, representatives from 
the EPA and the TCEQ. Locally, the Ark-Tex Council of Governments 
honors the Earth Club's efforts for environmental projects in the area 
by purchasing equipment each year for water testing and recycling. In 
addition, they have been recognized annually by the city of Texarkana, 
TX for volunteer work. Currently nineteen students are participating in 
waterway clean-up of the Lake Wright Patman shores on National Public 
Lands Days in coordination with the U.S. Corp of Engineers. In 
addition, TC has an Environmental Studies Center and wetland area where 
students are involved in environmental studies about invasive species, 
water species, bird watching through Project Feederwatch (a Cornell 
University project done worldwide) and Frogwatch USA/Texas Amphibian 
Watch.
    In other student led activities, Texarkana College sponsored a 
group of public schools students, the Bionic Bulldogs, in the 2010 FLL 
Body ForwardT Challenge which explored the cutting-edge world of 
Biomedical Engineering to discover innovative ways to repair injuries, 
overcome genetic predispositions, and maximize the body's potential, 
with the intended purpose of leading happier and healthier lives. The 
Bionic Bulldogs had call-backs to review their exceptional performances 
in Teamwork and Project Research in addition to their high Table 
Performance scores. The TC Bionic Bulldog team was named Qualifying 
Champion--the highest honor given at the First Lego League Qualifying 
events. Our team moved forward to the North Texas First Lego League 
State competition where they competed for the top honors and a chance 
to attend the World Festival.

Section IV:Percent of TC Students with a Degree in STEM Education

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    TC provides numerous scholarship opportunities through our Rising 
Star Scholarship, Presidential Scholarships, Faculty Association 
Scholarships, and various other endowed scholarships including the Tom 
Wilbanks Scholarship and the Jake and Bessie Eldridge Scholarship, 
which allow students to attend their first two years of college 
primarily cost-free. In the case of the Eldridge Scholarship, 
outstanding TC students are actually awarded scholarships from TC to 
continue their education at any Texas public higher education 
institution. Furthermore, TC partners with many area public high 
schools to offer dual credit instruction in core curriculum areas 
including mathematics. Many STEM students pursue both scholarship and 
dual credit opportunities to advance their educational goals through 
Texarkana College.

Section V:TC Awareness/Use of Federal Grants

NOVA Grant: In 2000, Texarkana College, through the Division of 
Physical Science and Mathematics, was awarded the NOVA Grant. Through 
efforts made by faculty, collaboration with NASA enabled students from 
local Independent School Districts to benefit from state-of-the-art, 
technology-based instruction. This grant continued for five years and 
the results have been a lasting impact on techniques used both at the 
K-12 level and continuing on to higher education in our area. http://
old.texarkanacollege.edu/mstorey/NOVA/tgazette22300.htm.
U.S. Department of Education:

Direct Programs Include-

    <bullet>  Student Financial Assistance/Federal Supplemental 
Educational Opportunity Grants
    <bullet>  Federal Work-Study Program
    <bullet>  TRIO- Student Support Services
    <bullet>  TRIO- Talent Search
    <bullet>  Federal Pell Grant Program
    <bullet>  Academic Competiveness Grant

Passed-Through Texas Higher Education Coordinating Board Grants-

    <bullet>  Vocational Education- Basic Grant
    <bullet>  LEAP
    <bullet>  SLEAP
    <bullet>  Byrd Scholarship

U.S. Department of Health and Human Services: Passed-through North East 
Texas Workforce Solutions:

    <bullet>  Summer Youth Employment - WIA Youth Program
    <bullet>  Child Care Mandatory and Matching Funds

Section VI:TC Transfer & Employment Information

    Texarkana College has a 24% transfer rate for FY 2010 to higher 
education institutions within the State of Texas; however, we have been 
unable to track transfer rates to higher education institutions in 
other states which is presumably high for TC due to our border state 
status. We are joining the National Student Clearinghouse in 2011-2012 
to improve a variety of student transfer services including tracking of 
our total transfer rate. Almost 83% of our total academic students are 
employed after graduation and/or go on to pursue a four-year degree. 
Graduates of our workforce education programs have a slightly higher 
rate with almost 85% employed and/or enrolled.
    Within our community, Texas A&M-Texarkana has been our 
collaborative partner to provide a seamless transition for students to 
pursue a four-year bachelor's degree. In 2010, more than 80% of their 
enrolled students were considered transfer students (TX College 
Almanac, 2010) of whom we were the primary source.
    Articulation agreements are in place with the following 
institutions of higher education:

    <bullet>  Southern Arkansas University
    <bullet>  Texas A&M University - Texarkana
    <bullet>  University of Texas - Tyler

    Chairman Hall. And thank you, thank you very much. To 
accentuate that day on the moon, just last Thursday, we had 
Neil Armstrong, the first man on the moon, and Gene Cernan, who 
was the last American on the moon, before our Committee. And 
they spent the entire day with us and with our staff and with 
youngsters, encouraging them. They are great, great people. I 
even found out why Neil Armstrong was the first on the moon. 
Buzz Aldrin started to go out, and Neil caught him by the arm 
and said, ``Wait just a minute, I'm supposed to go out first.'' 
Buzz said, ``No, I out rank you. I'm a captain in the Navy.'' 
He said, ``No, you don't out rank me. I'm a citizen.'' And he 
stepped out first, and that was very interesting. And he gave 
the time. Kate Kronmiller gets the credit for getting 
astronauts for us here because I'd always go to her. She was on 
the USA Committee, and she was one, with her boss, who would 
count down, ten, nine, eight, seven, six, and save lives of 
people by stopping them if they weren't ready to go.
    By the way, I've had my eyes done-- redone cataracts. Her 
husband had them done at the same time. I had my one at a time 
because I had a bill on the floor and I had to have a good eye 
to do that. She had both of his done at the same time, not 
because it saved time, because Kate likes a party. Anything 
that can cause you to have a party, and she wanted to have a 
opening up party for him, opening those blinds off his eyes. 
They did that with four or five astronauts, several of us there 
with her. Everybody shaking a glass with ice in it. And ta-da, 
and they opened them and pulled it off. And he opened and he 
looked at Kate. He said, ``My God, Kate, you've aged.'' That 
ended the ceremony right there.
    All right. Now, I recognize Dr. Brad Johnson for five 
minutes to present his testimony.
    Thank you, sir. Thank you, Brad.

STATEMENT OF DR. BRADLEY W. JOHNSON, PRESIDENT, NORTHEAST TEXAS 
                       COMMUNITY COLLEGE

    Dr. Johnson. Thank you, Chairman Hall, Congresswoman 
Johnson. I appreciate the chance to present this testimony.
    Let me tell you just a bit about the college that I serve. 
Northeast Texas Community College is a small comprehensive 
community college located on 400 acres of farmland about 6 
miles outside of Mount Pleasant, Texas. NTCC has grown by 
almost 50 percent in the last three years, to more than 3400 
credit students. Northeast Texas serves a student body that is 
diverse in every imaginable way. We are diverse racially and 
ethnically. We are diverse in terms of the family educational 
backgrounds from which our students come. And we are diverse in 
the educational preparation with which those students arrive.
    There are three aspects to the community college's 
workforce role that NTCC tries to focus on.
    The first is to bring the literacy levels of aspiring 
college students up to college level. The second is to provide 
whatever general education is needed for their particular 
educational goals. And third, to complete the education of 
students entering terminal degree areas.
    Northeast Texas contributes to the nation's STEM fields in 
several critical ways. First, as has already been mentioned, we 
are most likely the gateway through which first generation and 
economically disadvantaged students begin their college 
careers. We also train the technicians required to work within 
fields which applies STEM knowledge to American business. The 
college, in partnership with Texas A&M Texarkana, provides the 
ability for some of our students to become teachers while they 
remain on the NTCC campus, a benefit that I have heard from 
several of the area superintendents has made the difference in 
their ability to continue to provide a quality education to our 
area. Our most recent example of successful collaboration is 
happening right now. Three partners came together this year to 
open a regional training academy in Mount Pleasant. This 
project merges with career and technical training provided by 
Mount Pleasant Independent School District with the workforce 
training provided by Northeast Texas Community College in two 
areas, electrical trades and industrial technology. The result 
is a state of the art program that serves both high school and 
adult students in the same facilities with the same instructors 
and using the same equipment. By fall 2012, all 11 of the ISDs 
in our service area will be able to participate in this 
academy.
    The biggest challenges for Northeast Texas Community 
College in terms of STEM education line three areas, student 
preparation, student interest and college resources. In terms 
of preparation, 39 percent of our students must take one or 
more developmental math courses on their arrival at the 
college, and only 33 percent of our students require no 
remediation at all.
    In terms of interest, too few students choose a STEM major, 
and when we ask them why, they cite the rigger of the science 
and math courses or a lack of interest, and I think actually a 
lack of awareness of the careers that they believe follow such 
degree choices.
    In terms of resources, the shrinking college resources that 
we have been experiencing in the last two or three years create 
a bottleneck within our lab sciences at Northeast Texas. This 
fall, our lab science courses were filled well before the term 
began, leaving lists of students waiting and hoping for slots 
vacated by withdrawals.
    Our transfer challenge is also interesting in several ways, 
but one of them that is somewhat unique to being a rural 
college is the geographic challenge. There are no universities 
less than an hour's drive from NTCC. To mitigate that obstacle, 
NTCC partners hosted a university center on our campus. This 
center has full-time staff and faculty from Texas A&M 
University Texarkana, who assist with the transfer process, as 
well as providing the courses on our campus necessary to 
complete Baccalaureate degrees in education and business.
    I want to thank you for the opportunity to provide this 
testimony and would welcome any questions that you might have 
further.
    [The prepared statement of Dr. Johnson follows:]
  Prepared Statement of Dr. Bradley W. Johnson, President, Northeast 
                        Texas Community College
    My name is Bradley W. Johnson, President of Northeast Texas 
Community College, here to provide testimony on the contributions of my 
college to the economy, workforce and community.
    Northeast Texas Community College (NTCC) is a small, comprehensive 
community college located on 400 acres of farmland six miles outside 
Mount Pleasant, Texas. NTCC has grown by almost 50% in the last three 
years, to more than 3,400 credit students (35% male; 65% female) this 
fall. Half the students are preparing to transfer to a university and 
pursue a baccalaureate degree, while a quarter are preparing for a 
career in healthcare. The last quarter is preparing for immediate entry 
to other areas of the workforce, such as automotive technology and 
culinary arts, law enforcement, computer information technicians, 
welding and electrical occupations.
    Half of the students at NTCC receive a PELL grant and almost 70% 
receive some kind of financial aid to attend college. The cost to a 
full time student for tuition and fees is under $1000 (in district) per 
semester. However, tuition covers less than 20% of the total cost to 
operate the college. The remaining revenue needs are covered with a 
local ad valorum tax (currently capped at 10 cents/$100 valuation), 
state formula funding and other sources.
    Northeast Texas Community College serves a student body which is 
diverse in every imaginable way. Almost a quarter of the students are 
Hispanic and another 14% are African American. More than 16% of the 
students come from homes where neither parent graduated from high 
school and only 20% of the students have a parent who completed a 
baccalaureate degree. On the other hand, the college serves a number of 
the top graduates of the region, annually admitting valedictorians/
salutatorians and other top performers to its Presidents Scholar's 
program. These and other students regularly participate in regional and 
national undergraduate research contests and earn distinction in head-
to-head competition with public universities from across a five-state 
region.

The Workforce Development Role of Northeast Texas Community College

    Northeast Texas Community College's role is to provide entry-level 
training and education to persons who are either initially entering the 
workforce or who are seeking to reenter and retrain in new areas or 
with updated skills. The college does that through its credit offerings 
(traditional degrees and certificates), as well as through customized 
and standardized non-credit offerings.
    There are three aspects to the college's workforce development 
role; 1) bring the literacy levels of aspiring students up to college-
level, 2) provide whatever general education is needed for their 
particular educational goals, and 3) complete the education of students 
entering terminal degree areas. By meeting this mission, the college 
improves the marketability of job seekers, productivity of workers, and 
quality of life for both workers and their families, while reducing the 
demand on governmental services by those same people.
    In a 2010 study of NTCC's role in the regional economy, several 
measures quantified aspects of the college's economic impact on the 
eight-county region surrounding Mt. Pleasant, Texas.

    1.  The Texas tax base expands by about $16.5 million annually as a 
result of the increased earnings and productivity of NTCC students;

    2.  State and local governments receive an 8.5% ROI (rate of 
return) on the direct support they contribute to the college operation;

    3.  Students receive an 18.9% ROI on their investment in the 
college (tuition, fees, forgone wages), meaning they earn back 100% of 
their investment within 7.8 years;

    4.  The state will avoid $823,800 per year in avoided social costs 
due to the education of NTCC students. Savings come from improved 
health, reduced crime, and reduced welfare and unemployment.

    These impacts compounded across the nation through the work of 
thousands of sister institutions; make community colleges a critical 
player in the U.S. economy.
    Northeast Texas Community College contributes to the nation's STEM 
(Science, Technology, Engineering and Math) fields in several critical 
ways. First, we are the most likely gateway through which first-
generation and economically-disadvantaged students begin their college 
careers. Although only 10% of our total student body are seeking a STEM 
degree, these are still significant contributions to the effort.
    We also train the technicians required to work within the fields 
which apply STEM knowledge to American business. Lab technicians, 
nurses and other medical technicians, industrial technicians, and 
numerous others are necessary if the innovations arising from science 
research and development efforts are ever to reach the market they are 
intended to serve. NTCC has seven health-related programs (844 
students) and more than a dozen workforce-related programs (more than 
200 students) which provide critical technician-level training to the 
region and nation. Programs like computer networking and programming 
provide indispensible support to STEM operations in the educational, 
research & development, and business arenas.
    The college, in partnership with Texas A&M-Texarkana, provides the 
ability for students to become teachers on the NTCC campus. The 
Superintendent at one area school district (Mt Vernon ISD) recently 
reported that, without the teacher education program at NTCC, his 
school likely would not be able to find teachers. Supplying, and 
strengthening, the pool of educators is important to STEM efforts, as 
well.There has been much discussion among those of us in rural areas 
about the severe ``brain-drain'' caused when we educate our best and 
brightest students through high school, then send them off to the big 
city for an undergraduate education and never get them back (until 
perhaps they retire). One of our major area employers, a public utility 
with a power plant in our region, has noted recently that they strongly 
prefer employees who grow up in East Texas. According to their 
personnel director, ``we've tried importing skilled workers--they don't 
stay. We want those who have family and roots here so our workforce 
investment will return a healthy profit.''
    Today this company is our partner in a local industrial technology 
training program because they have learned their best employees are 
those with roots in the region, who want to stay in the area and who 
therefore have a long-term view of supporting the company's success. 
NTCC educates students who are far more likely to remain in the region 
than those who leave for their undergraduate studies.

Collaborations to Create and Maintain an Educated & Skilled Workforce

    Northeast Texas Community College partners with every part of our 
region to accomplish our mission at a fraction of the cost of the 
private sector, for-profit colleges. Programs like ``College 
Connection'' put our students and staff in the high schools, junior 
highs, and elementary schools of all 11 districts in our region. 
College Connection assures that every graduating high school student is 
admitted to the college, or has a post-secondary plan, before they walk 
across the stage.
    The college, through the Communities in Schools program, has staff 
in most school districts providing case management, social services, 
and educational interventions to at-risk students. These school 
districts contribute their own funds, making this program a valuable 
grassroots collaboration.In 2010, a regional collaboration called the 
``Regional Advanced Manufacturing Academy'' received state and national 
awards for its innovations which brought industry-driven training to 
new and incumbent workers across the entire Northeast Texas region. 
This collaboration between three community colleges, the regional 
workforce board, and the Texas Workforce Commission, was managed by 
NTCC and exceeded all performance standards while earning strong 
reviews by the companies served.
    Despite the 2008 economic downturn, which has been particularly 
brutal for our region because of our heavy dependence on manufacturing, 
three partners came together this year to open the Regional Training 
Academy. This project merges the career and technical training provided 
by Mount Pleasant Independent School District with the workforce 
training provided by Northeast Texas Community College in two areas: 
electrical trades and industrial technology. The result is a state-of-
the-art program that serves both high school and adult students in the 
same facility, with the same instructors, and using the same equipment. 
By Fall, 2012 all other ISDs in the area will be able to participate in 
the Academy.
    Area industries have identified such a critical labor shortage in 
these areas that the project (Regional Training Academy) opened its 
doors in March, six months before the facility was finished. Training 
occurred in the evening while construction took place during the day. 
The Industrial Technology program has two cohorts of students in 
training now, and roughly 50 high school students will join the project 
this month. Immediate expansion plans include an AutoCAD program, and 
long-term discussions have begun on the possibility of an engineering 
technology program with a university partner. All this was accomplished 
for the cost of $1.5M and in a span of one year. Significant financial 
and political support came from the Mount Pleasant/Titus County 
Industrial Development Corporation. This project demonstrates the power 
of community-based decision making and collaboration.

Challenges to NTCC Students in STEM Subjects

    The biggest challenges to Northeast Texas Community College in 
terms of STEM education lie in three areas: student preparation, 
student interest, and college resources.Despite major efforts on the 
part of our public education system to raise standards and improve 
student performance in math and science, too many of our students 
arrive with deficits in their academic preparation. Thirty-nine (39) 
percent of our students must take one or more developmental math 
courses and only 33% of students require no remediation at all.
    Too few students choose a STEM major, citing the rigor of the 
science and math courses or lack of interest in the careers they 
believe follow such degree choices. Even though one in ten students are 
following a STEM major, the largest numbers of those students (4% of 
total student body) are preparing for the healthcare field, leaving too 
few students pursuing the pure sciences or engineering.
    Shrinking college resources create a bottleneck in the lab sciences 
at Northeast Texas Community College. This fall our lab science courses 
were filled well before the term began, leaving lists of students 
hoping to fill slots vacated by withdrawals. The college simply did not 
have either the faculty or lab classrooms available to open more 
sections. Lab sciences were offered morning, afternoon and evening 
until every qualified instructor was teaching, and still we could not 
meet demand.
    With more than $2 million in facility deferred maintenance, the 
college has no funds to build more classrooms or hire additional 
science faculty. We replaced one science instructor this past summer 
but could not afford additional faculty. The college has had to close 
its Radiologic Sciences program in order to absorb the state funding 
cuts.

STEM Education at Northeast Texas Community College

    Only 2.4% (or 12 students) of the 2010 graduating class at NTCC 
received STEM degrees. Three-quarters of these were male and two-thirds 
were minority students. The college is aware of its challenges with 
graduation and transfer of its students. Graduation rates are better 
than average for community colleges, far too many students are falling 
by the wayside. NTCC has recently begun a major rethinking of our 
entire operation with the focused intention to achieve dramatic future 
improvements in student success.
    Northeast Texas Community College has made considerable efforts in 
the past to provide opportunities for students interested in STEM 
career paths. Most recently, for example, our students participated in 
some of the best STEM experiences in the country:

    <bullet>  Josh Galloway and Alex Best were chosen to participate in 
the REU (Research Experience for Undergraduates) program at TAMU-
Commerce;
    <bullet>  Alex Villalobos participated in Baylor College of 
Medicine's Summer Undergraduate Research Fellowship Program in Houston, 
Texas;
    <bullet>  Maria Chavez participated in Boston University's Summer 
Undergraduate Research Fellowship Program in Boston, Massachusetts;
    <bullet>  Clara Ramirez participated in the Dialysis Clinic, Inc. 
Collegiate Medical Summer Internship Program in Nashville, Tennessee;
    <bullet>  Alex Villalobos participated as a Research Intern in the 
Johns Hopkins Asthma and Allergy Center Summer Research Program in 
Baltimore, Maryland.

    This college was the first community college to be approved by 
Texas A&M University--College Station Biomedical Sciences program for 
guaranteed admission of our graduates. Students completing their first 
two years' studies, following prescribed curriculum, and maintaining 
superior achievement are guaranteed transfer into this university 
program. A number of students have graduated successfully from Texas 
A&M under this preferred admission arrangement.
    NTCC's most recent National Science Foundation grant program sought 
to improve educational outcomes for STEM students and was entitled, 
``Mathematics Access for Promising Scholars (MAPS) Project.'' MAPS was 
founded to increase the number of minority and underrepresented 
students with low income who have high ability and the desire to major 
in a mathematics intensive course of study. The following activities 
were incorporated to accomplish this goal:

    1.  Advertisement of the scholarship by instructors and posters,
    2.  Organization of a campus math/science student organization,
    3.  Creation of a cohort of students planning to earn an A.S. 
(Associate in Science degree) in a math intensive course of study,
    4.  Establishment of direct communication by faculty with selected 
transfer universities.
    Within the MAPS project, the NTCC math and science faculty recruit, 
mentor, and assemble a cohort of students. Working with their 
colleagues in the mathematical sciences department of Texas A&M 
University-Texarkana and Texas A&M University-Commerce our faculty 
remove barriers for students to transfer to each of these institutions 
respectively. In particular, an articulation agreement was established 
in 2008 in Industrial Engineering with Texas A&M University-Commerce. 
To help students with the transfer process, the NTCC calculus sequence 
was modified and improved in 2007 to parallel the universities in 
Texas.
    Creating a cohort of students in the mathematical sciences that is 
closely mentored by dedicated faculty mentors continues to be the most 
beneficial activity for students majoring in the math-intensive 
disciplines. The close friendships and support among students prove to 
be the major reason that students elect to continue the more 
challenging courses. In addition, academic advisors share information 
that is important to help students understand the difficulty of the 
mathematical sciences and the time required to earn a degree in a math-
intensive area. Most NTCC students do not understand --nor do their 
families understand--the difficulty caused by working excessive hours 
to help pay for college expenses while enrolled in classes in the hard 
sciences.
MAPS Outcomes since 2002:

    <bullet>  A total of 95 students were awarded the MAPS scholarship;
    <bullet>  Approximately 45% of these recipients were minority 
students;
    <bullet>  Overall, 74% of the scholarship recipients completed the 
calculus sequence or were on-track to complete the sequence within a 
semester;
    <bullet>  98% of the recipients have credit for Calculus I or 
above;
    <bullet>  One in three scholarship recipients have earned a B.S. in 
mathematics or were pursuing the degree at the end of the program;
    <bullet>  Two-thirds (65%) have earned or were on-track to receive 
an A.S. or above in STEM;
    <bullet>  The overwhelming majority (91%) of the recipients have 
either graduated with an associate degree or matriculated to a 
university. NTCC graduation rates overall ranged from 20% to 30% during 
the time of this program.

Use of Federal Resources by Northeast Texas Community College

    Although we have sought a number of National Science Foundation 
grants in the past, we have been mostly unsuccessful. We understand our 
challenges to be 1) a lack of experience writing NSF grants which can 
be highly technical in nature, and 2) a historic preference at the 
agency for funding research institutions.
    We have been more successful working as sub-recipients on grants 
written by our partner universities. While this has earned our students 
scholarships and some enhanced learning activities in the past, it is 
difficult to secure grant funds for labs and equipment when we are a 
sub-recipient.
    One successful effort has focused on STEM recruitment. It was 
funded through a combination of grants from the Texas Education Agency 
(TEA) and the U.S. Department of Education. The goal was to inspire 
interest in Science, Math and Technology among the children of our 
service district. NTCC implemented SMART (Science, Math And Related 
Technologies) Girls, The Science Road Show and Summer Science Academy 
were implemented in February, and conducted throughout the remainder of 
the school year.
    These projects were conducted in the schools of Mount Pleasant 
Independent School District, Pittsburg Independent School District, 
Daingerfield-Lone Star Independent School District, Paul Pewitt 
Consolidated Independent School District, Harts Bluff Independent 
School District, Chapel Hill Independent School District, and Winfield 
Independent School District. The SMART Girls Conference was held on the 
Northeast Texas Community College campus. Since the inception of these 
programs, NTCC has expanded outreach to include hands-on activities 
targeting boys in middle school, to pique their interest in science, 
math, technology and pre-engineering with WISE Guys (Working In Science 
and Engineering).
    WISE Guys has brought boys to the campus of Northeast Texas 
Community College campus for week-long academies in the summer to learn 
about robotics, alternative energy sources, sustainable agriculture and 
much more. To help meet the growing interest among students, NTCC also 
implemented SciFi2 (Science Fun, Instruction and Interaction), 
workshops for teachers in grades 4 through 6 to help them develop new 
strategies for presenting science instruction to students. These 
workshops were sponsored in part by the American Chemical Society (ACS) 
and offered exciting and engaging activities using low-cost items that 
teachers could incorporate into their existing curriculum. Other 
activities, such as Engineering Your Future have brought hundreds of 
students to the campus of NTCC to learn about careers in science, 
mathematics, engineering and technology, featuring speakers such as 
NASA engineer Thomas Morrow.
    Other examples of NTCC's outreach in the areas of science, math, 
engineering and technology include offering high school students the 
opportunity to explore careers in those areas. To do this the college 
has created opportunities for students to dialogue with professionals 
from careers in science and engineering, including a NASA Astronaut.
    Since 2004, almost 2,000 girls in grades 5-8 have attended a SMART 
Girls Conference and over 4,000 girls have participated in some kind of 
SMART Girls activities throughout the year, with the following 
demographic breakdown:

    <bullet>  Hispanic 43%
    <bullet>  Asian 36%
    <bullet>  African American 20%

    Over 14,000 students have participated in Science Road Show 
Activities. These students had the following demographic makeup:

    <bullet>  Females 52.1% / Males 47.9%
    <bullet>  Hispanic 29.63%
    <bullet>  Asian 0.8%
    <bullet>  African American 17.68%

    So far, over 200 girls have participated in Summer Science Academy 
activities and 115 boys have participated in WISE Guys Academy 
activities. SciFi2 has brought 60 teachers from NTCC service area 
schools to the campus of NTCC for a two day workshop coordinated by 
NTCC faculty in science and engineering.

Preparing Students to Transfer or Enter Workforce

    To enhance the capabilities of our students for success after they 
leave Northeast Texas Community College, we seek to match or exceed the 
rigor offered at universities in core curriculum courses, while 
providing the advantages which come with a small campus--personal 
relationships with our students which allow for more effective 
instruction.
    There are no universities less than an hour's drive from NTCC. To 
mitigate that obstacle, NTCC partners to host a University Center on 
the campus. This Center has full time staff and faculty from Texas A&M 
University--Texarkana who assist with the transfer process as well as 
provide the courses on the NTCC campus necessary to complete 
baccalaureate degrees in Education and Business.
    Our advisors regularly work with their university-counterparts so 
advising can be as accurate as possible and students can complete as 
many courses at NTCC as will count toward their baccalaureate degrees 
before they leave us.
    Student preparation for the workplace is enhanced because we have 
personal experience with our major area employers, having toured their 
facilities and often provided workforce training in partnership with 
those employers. This assists faculty in bringing the curriculum to 
students which fits the needs of our regional employers. These local 
adjustments are most clearly seen in decisions like which versions of 
software we will teach, the integration of LEAN manufacturing methods 
into business classes, and the decision to add Level II training to the 
Industrial Technology program a year sooner than planned.
    Thank you for the opportunity to provide testimony to this 
Committee. The challenge to prepare high quality college graduates in 
sufficient numbers to return the United States to its leadership role 
on the world economic stage is great and will take all of us working 
together to be successful.

    Chairman Hall. Thank you very much.
    And at this time, I recognize our final witness for this 
panel, Dr. Rathburn, for five minutes, Mr. President.

STATEMENT OF DR. C.B. RATHBURN, PRESIDENT, TEXAS A&M UNIVERSITY 
                          - TEXARKANA

    Dr. Rathburn. Thank you, Chairman Hall and Representative 
Johnson for being here with us this morning. Welcome to 
Texarkana, Texas, the home of integrated STEM education.
    My name is C.B. Rathburn. I'm honored to serve as President 
of Texas A&M University Texarkana, but prior to this, I spent 
27 years of my career at a community college, including 13 
years as a community college president in two states.
    The emphasis and focus on community college education here 
today, especially on the topic STEM education, is not only 
timely but incredibly important. I appreciate the opportunity 
to participate this morning and discuss lessons learned from a 
seven-year partnership in a pre-kindergarten through 
Baccalaureate degree integrated STEM education, as well to 
address your questions regarding the development and operations 
of STEM education programs leading to enhanced workforce 
development and economic development. Your subject is, in fact, 
critical to the future our nation's economy. The tide of losing 
high paying science, technology and engineering jobs to other 
countries is alarming but understandable when you consider the 
declines experienced over the last two decades in the 
performance of our students in math and science curricula and 
the production of both STEM field graduates and qualified STEM 
educators. The decline has been especially challenging in our 
smaller and more rural communities across our nation.
    While America has experienced significant declines over the 
last decade in STEM education performance and resulting 
economic developments, other nations, among them China, North 
and South Korea, and India, are enjoying significant 
improvements in both postsecondary attainment in STEM fields 
and overall STEM education performance. This does not bode well 
for our nation long-term.
    For the United States to regain and expand our competitive 
edge in the global economy, this trend must be reversed. 
Unfortunately, there are no quick fixes to this challenge. Most 
recent studies in STEM education performance conclude that an 
integrated emphasis on critical math, science and engineering 
concepts must begin at the early childhood education level and 
continue each and every year through high school for students 
to be adequately prepared for success in postsecondary STEM 
education. To accomplish this, we must refocus our primary and 
secondary education resources and curricula structures to 
enhance core math, science and analytical thinking skills 
before we will see a significant improvement in STEM 
postsecondary attainment.
    The United States continues to face a critical shortage of 
well prepared STEM educators at all levels, as well as the 
resources to support essential continued professional education 
to STEM teachers currently in the field. This shortage is 
especially acute in rural communities where the need for STEM 
education and the resulting economic renewal through a well 
educated workforce is most needed. A&M Texarkana is proud of 
the easily replicable partnership created and tested with the 
Texarkana Independent School District, which has demonstrated 
great promise in reversing the declining tide in both STEM 
education performance of our students, as well as significant 
improvement in STEM teacher preparation. We look toward the 
opportunity in our written testimony to describe further how 
this can be enhanced.
    In response to the questions proposed by Chairman Hall, I 
am pleased to provide the following responses. A&M Texarkana is 
a comprehensive regional university serving the educational 
needs of East Texas, and our diverse four-state region. We are 
an institution of access and a proud member of the Texas A&M 
University system with over 130,000 students served daily 
through 11 member universities and 7 state agencies. For the 
first 38 years of our existence, A&M Texarkana served as an 
upper division and Master's degree rating university, but 
thanks to visionary local leadership, strong legislative 
support, the university transformed over the last two years 
into a comprehensive regional Doctoral level university. The 
fall of 2011 freshmen class, our first freshmen class in the 
fall of 2010, grew by almost 300 percent, making us one of the 
fastest growing universities, not just in Texas, but in the 
Southwest.
    A&M Texarkana has a distinguished history in the 
preparation of professionals in all fields with a particular 
focus on quality teacher preparation. With the establishment of 
the first STEM college in the state of Texas in January of 
2010, our emphasis on the production of STEM graduates has 
expanded exponentially in the last two years. Our programs in 
computer science, electrical engineering, biology, mathematics, 
and nursing boast world class faculty and are growing at a 
tremendous rate. For the last two years, a majority--I'll state 
it again--the last two years, a majority of our incoming 
freshman have chosen for fields in the STEM college, which 
we're very proud of. Presently, the STEM college is searching 
for faculty to start a new program in environmental engineering 
in partnership with the program at Northeast Texas Community 
College. We have great natural resources in water and land in 
East Texas, and we want to take advantage of those, not only 
for education, but for economic development purposes.
    A&M Texarkana has received accolades for the success of our 
undergraduates in STEM education, placing first and third in 
the last two years in statewide undergraduate research 
competitions. That was in direct competition with universities 
such as A&M College Station.
    You talk about partnerships, the Hedgehog, if you're a 
student of Collins, Good to Great, for our university is to be 
world class at partnerships. Our collaborative efforts for the 
creation of Martha & Josh Morriss Mathematics & Engineering 
Elementary School in recent years, coupled with the extension 
of this PK-16 STEM partnership through the middle and high 
school, has produced great student success as well as national 
acclaim. The Westlawn Professional Development School, in 
partnership with TISD, is a new model for teaching preparation, 
which we must take a hard look at, and has proven its worth 
over the last eight years. Our electrical engineering and 
computer science programs grew directly out of the 
collaboration with local business and industry and were funded 
with the private sector investment of over nine million 
dollars, including support of our own H. Ross Perot here in 
Texarkana. Students in these STEM fields are engaged in 
internships with organizations such as Cooper Tire and other 
local employers.
    Our newest STEM initiative is in environmental engineering 
program, as I mentioned. It's a collaboration between 
TexAmericas Center, the City of Texarkana, Texas, and Northeast 
Texas Community College. We have nearly 100 million dollars in 
remediation work that needs to be done environmentally at the 
TexAmericas Center, which the opportunity for workforce 
development and the opportunity for research in that area is 
incredible. We recently received a $300,000 Brownfield EPA 
grant to begin workforce development critical for this.
    By far, of course, our largest collaboration partnership is 
workforce development with our regional community college 
partners in Texas, Oklahoma, Arkansas, and Louisiana. We are a 
strong supporter of the ``2+2'' model of higher education and 
have recently initiated an expanded effort with all of our area 
community colleges to enhance the vertical articulation, joint 
student advisement and seamless transfer of our students. We 
are convinced that this is a premier model for efficient, cost 
effective production of a skilled workforce at the 
Baccalaureate level and that this partnership produces the best 
option for many of our students. We are proud to have the 
lowest tuition rate in the state of Texas, and we think this 
provides access for our students.
    The major challenge impacting the performance and success 
of our students in postsecondary STEM fields is clearly the 
core science and math skills of the entering students coupled 
with what I like to call the ``Google'' effect. With fewer 
students mastering higher level math and science skills up 
through calculus, as demonstrated by falling math and science 
quantitative measures, we see the growing and growing challenge 
of unsuccessful remediation at the postsecondary level. Our 
students are simply not prepared for success in the STEM 
fields, especially in fields like engineering and physics. In 
addition, too many students entering lack the analytical and 
critical thinking skills essential to the success in STEM 
education. Far too many students are content with a simple 
Google search to find the answer to a question rather than 
scientific discipline to seek the answers through creative 
inquiry. This leads to the inability of today's students to 
conceptualize higher order STEM concepts and develop the 
analytical thinking skills.
    Clearly, STEM education is in the forefront in the 
Texarkana community. Clearly, STEM education in this community 
is a result of enhanced partnerships. And clearly, it is the 
future for the Texarkana region. Thank you for the opportunity 
to participate this morning.
    [The prepared statement of Mr. Rathburn follows:]
  Prepared Statement of Dr. C. B. Rathburn, III, Texas A&M University-
                               Texarkana
    Honorable Chairman Ralph M. Hall and Members of the U.S House of 
Representatives Committee on Science, Space and Technology, welcome to 
Texarkana, Texas and to the home of integrated STEM education in Texas. 
My name is C. B. Rathburn and I am honored to serve as the President of 
Texas A&M University-Texarkana. Thank you for inviting me to 
participate in this important hearing this morning to discuss lessons 
learned from a seven year partnership in Pre-Kindergarten through 
Baccalaureate Degree integrated STEM education and to address your 
questions regarding the development and operation of STEM education 
programs leading to the development of an enhanced workforce, economic 
development and job creation for our local communities. I am pleased 
and honored to have the opportunity to provide testimony to your 
Committee today and to welcome you, Mr. Chairman, home to East Texas.
    Your subject is critical to the future of our nation's economy. The 
tide of loosing high paying science, technology and engineering jobs to 
other countries is alarming but understandable when you consider the 
declines experienced over the last two decades in the performance of 
our students in math and science curricula and the production of both 
STEM field graduates and qualified STEM educators. This decline has 
been especially challenging in our smaller and more rural communities 
across our nation.
    While America has experienced significant declines over the last 
decade in STEM education performance and resulting economic development 
as detailed in a variety of reports including the Educational Testing 
Services pivotal work, ``America's Perfect Storm,'' other nations 
including China, North and South Korea and India are enjoying 
significant improvements in both postsecondary attainment in STEM 
fields and overall STEM education performance of their students. For 
the United States to regain and expand our competitive edge in the 
global economy, this trend must be reversed. Unfortunately, no quick 
fixes to this challenge exist.
    Most recent studies on STEM education performance conclude that an 
integrated emphasis on critical math, science and engineering concepts 
must begin at the early childhood education level and continue every 
year through high school for students to be adequately prepared for 
success in postsecondary STEM education. To accomplish this we must 
refocus our primary and secondary education resources and curricular 
structures to enhance core math, science and analytical thinking skills 
before we will see significant improvement in STEM postsecondary 
attainment.
    The United States continues to face a critical shortage of well 
prepared STEM educators at all levels as well as the resources to 
support essential continuing professional development for STEM teachers 
currently in the field. This shortage is especially acute in rural 
communities where the need for STEM education and the resulting 
economic renewal through a well educated workforce is most needed. 
Texas A&M University-Texarkana is proud of the easily replicable 
partnerships created and tested with the Texarkana Independent School 
District, which have demonstrated great promise in reversing the 
declining tide in both STEM education performance at the PK-12 level 
and a significant improvement in STEM teacher preparation. We have 
developed a plan for the creation of a Regional STEM Research and 
Education Center as a collaborative with a number of school districts 
and partner universities across our four-state region designed to:

    <bullet>  Enhance the recruitment and production of STEM educators 
at all levels,
    <bullet>  Expand continuing professional development opportunities 
for current STEM educators designed to improve student performance in 
critical knowledge and skills areas and enhance the retention of 
current STEM educators and
    <bullet>  Develop a digital demonstration laboratory library to 
support current STEM educators in the field with special emphasis on 
the needs of STEM educators in rural and small school districts

    We would welcome the opportunity to further develop and test these 
concepts and process as a model for use in communities across the 
nation.
    In response to the questions proposed by Chairman Hall, I am 
pleased to provide the following responses and comments.
    Texas A&M University-Texarkana is a comprehensive regional 
university serving the educational needs of East Texas and our diverse 
four state region. We are an institution of access and a proud member 
of The Texas A&M University System serving over 130,000 students 
annually through 11 member universities and seven state agencies across 
Texas. For the first 38 years of our existence, A&M-Texarkana served as 
an upper division and master's degree granting university but thanks to 
visionary local leadership and strong legislative support, the 
University transformed into a comprehensive regional doctoral level 
university over the last 24 months accepting our first freshman class 
and first doctoral students in the fall of 2010. The fall 2011 freshman 
class grew by nearly 300% compared to the fall 2010 class making us one 
of the fastest growing universities in the southwest.
    A&M-Texarkana has a distinguished history in the preparation of 
professionals in all fields with a particular focus on quality teacher 
preparation. With the establishment of the STEM College at A&M-
Texarkana in January 2010, our emphasis on the production of STEM 
graduates has expanded exponentially in the last two years. Our 
programs in computer science, electrical engineering, biology, 
mathematics and nursing boast world class faculty and are growing at a 
tremendous rate. For the last two years a majority of our incoming 
freshman chose majors within the STEM College over programs in the 
other two colleges within the University. Presently the STEM College is 
searching for faculty to start a new program in environmental 
engineering and water and land management to take advantage of these 
great East Texas natural resources and the resulting potential economic 
development.
    Texas A&M University-Texarkana has received accolades for the 
success of our undergraduate STEM students placing first and third in 
the past two years in statewide undergraduate research competitions in 
direct competition with universities such as Texas A&M-College Station. 
The STEM College has received funding from the National Science 
Foundation and the EPA in the last two years to support these research 
and workforce development programs.
    The ``Hedgehog'' for the university, if you are a student of 
Collins work Good to Great, is to be world class at partnerships. Our 
collaborative efforts in the creation of the Martha and Josh Morris 
Mathematics and Engineering Elementary School in recent years, coupled 
with the extension of this PK-16 STEM partnership through the middle 
and high school, has produced great student success and national 
acclaim. The Westlawn Professional Development School, in partnership 
with TISD as a new model of teacher preparation, has proven its worth 
over the last eight years. Our electrical engineering and computer 
science programs grew directly out of collaboration with local business 
and industry and were funded with the private sector investment of over 
$9 million. Students in these STEM fields are engaged in internships 
with organizations such as Cooper Tire and other local employers.
    Our newest STEM initiative in environmental engineering is a direct 
result of a collaborative effort between the TEX-Americas Center, the 
City of Texarkana, TX and Northeast Texas Community College. The nearly 
$100 million environmental reclamation of the former Lone Star Army 
Ammunition Plant served and a catalyst for this initiative to develop 
critical education and workforce development programs for the emerging 
field of environmental remediation and environmental engineering. The 
University, in cooperation with the city of Texarkana and Tex-Americas 
Center, recently received an initial $300,000 EPA Brownfield training 
grant in preparation for this effort. This effort is projected to grow 
significantly in future years.
    By far our largest collaborative partnerships in workforce 
development are with our regional community college partners in Texas, 
Oklahoma, Arkansas and Louisiana. We are committed to the ``2+2'' model 
of higher education and have recently initiated an expanded effort with 
all of our area community college partners to enhance the vertical 
articulation, joint student advisement and seamless transfer of 
students. We are convinced that this is the premier model for 
efficient, cost effective production of a skilled workforce at the 
baccalaureate level and that this partnership produces the best option 
for many students. With Texas A&M-Texarkana's lowest tuition and cost 
of attendance in Texas and the entire region, this also produces the 
best value for degree attainment for the student.
    The major challenge impacting the performance and success of 
students in postsecondary STEM fields is clearly the core science and 
math skills of the entering students coupled with a ``Google'' mindset. 
With fewer students mastering higher level math and science skills up 
through calculus, as demonstrated by falling math and quantitative 
measures on standardized tests such as the ACT or SAT and the growing 
challenge of unsuccessful remediation of basic skills at the 
postsecondary level, many students are simply not prepared for success 
in collegiate STEM courses especially in engineering and physics. In 
addition too many entering students lack the analytical and critical 
thinking skills essential to success in courses requiring creative 
inquiry and the application of the scientific method. Far too many 
students are content with a simple ``Google'' search to find the answer 
to a question rather than the scientific discipline to seek the answers 
through creative inquiry processes. This leads to the inability of 
today's student to conceptualize higher order STEM concepts and develop 
the analytical thinking skills necessary for success in these fields. 
These academic challenges along with the pressing financial burden of 
the cost of higher education often leads to students either dropping 
out totally or finding an easier course of study outside the STEM 
fields. In either way we are losing the production if critical 
graduates for the STEM fields.
    The answer to this challenge is clearly demonstrated in the PK-16 
STEM partnership operational in Texarkana today. Beginning with the 
Morris Math and Engineering Elementary School through the Texas Middle 
School STEM Academy, on into the Perot STEM Academy at Texas High 
School and directly into the STEM programs at Texas A&M University-
Texarkana, students in our community are provided the opportunity 
beginning at the Kindergarten level to develop both a solid STEM 
background and the inquiry skills to be successful at the postsecondary 
level. A&M-Texarkana was involved at all levels of the development of 
this partnership from the design of the curriculum, to the design of 
the facilities, to the creation of a unique masters program to equip 
the public school teachers with the critical knowledge and skills to be 
successful in teaching the STEM concepts. The success of this 
partnership is documented in the students progressing through this 
system today and will be demonstrated over the next six years as 
successful graduates from the University.
    With the creation of the STEM College at Texas A&M-Texarkana in 
January 2010 the number of students majoring in STEM programs has grown 
by 100% and the number of STEM graduates by over 50%. In 2011, 
approximately 10% of A&M-Texarkana's graduates were in STEM fields. 
Females represent approximately 66% of these graduates with minority 
representation at approximately 20%. Both these numbers are reflective 
of the overall percentages for all students in all programs at the 
university.
    As previously stated the growth in the STEM College enrollments 
over the last two year at A&M-Texarkana has been exceptional. A 
majority of new freshman entering the university in each of the last 
two fall semesters have chosen degree programs in the STEM fields. 
Full-time equivalent student enrollment (FTE) changes over the last 
three years in STEM fields are as follows:

    Biological Sciences  302%
    Electrical Engineering  341%
    Mathematics  301%
    Computer Science  440%

    Base on this surge in STEM enrollments we anticipate significant 
growth in STEM graduates over the next four years.
    The primary reason for this growth has been the generosity of Anita 
and Truman Arnold and the gift of $10 million dollars over ten years 
for new student scholarships. This opportunity coupled with our summer 
camps in robotics, forensic sciences and other fields for bright high 
school students have established Texas A&M University-Texarkana as a 
destination point for STEM minded students. The university has 
initiated a number of support efforts over the last two years including 
the First Year Experience program, the student tutorial programs and 
the ASK Center designed to support students in their studies and foster 
increased student retention. As all of these programs are new over the 
last 24 months, an evaluation of the success of these initiatives is 
premature at this time.
    External funding from federal and other sources will continue to be 
critical to the success of our STEM education efforts. As a small 
regional university, our ability to attract federal funding is limited. 
Unfortunately many federal grant reviewers make decisions on new grant 
awards based upon the previous funding history for the university. Many 
federal grant programs provide ``bonus points'' in the review process 
for more ``seasoned'' universities with far more human and capital 
resources. Unfortunately, this serves as a road block for emerging 
comprehensive universities such as A&M-Texarkana in competing for these 
declining sources of support.
    Access to information on various federal grant programs is 
available but the technical assistance critical to successfully compete 
for these funds is lacking. The Texas A&M University System has 
initiated a program of shared services designed to utilize the 
expertise and resources of Texas A&M University-College Station, the 
other regional universities and the seven state agencies within the 
system to assist emerging universities such as Texas A&M University-
Texarkana in developing the resume and expertise critical to 
successfully compete for these federal resources.
    In the fall of 2009, A&M-Texarkana received our first direct 
research grant from the National Science Foundation Grant in the amount 
of $300,000 to study multilayer neural network with multi-valued 
neurons and their application to image recognition and processing 
directed by Dr. Igor Aizenberg. This grant led to the creation of the 
award winning undergraduate computer science and electrical engineering 
student research team and will hopefully serve as the foundation for 
additional funding in this important emerging field for homeland 
security and medical image recognition.
    Earlier this summer the University received an Environmental 
Protection Agency grant for $300,000 to support environmental workforce 
development and job training as a collaborative effort with the City of 
Texarkana, Texas and Texarkana College and serve as a foundation for 
the initiation of the new environmental engineering program at the 
university. We anticipate that this effort is the first step in a 
series of grants and partnerships to support our environmental 
engineering initiatives.
    I would like to again express my appreciation to Chairman Hall and 
the membership of the Committee on Science, Space and Technology for 
the opportunity to present Texas A&M University-Texarkana to you this 
morning and our vision and please in the world of STEM education and 
workforce development. We have a solid foundation built in Texarkana 
with our partners and look forward to working closely with your 
Committee and various federal agencies as we together strive to regain 
our global prominence in Science, Technology, Engineering and 
Technology. I would be happy to answer any questions.

    Chairman Hall. Mr. President, thank you.
    And thank all four of you. That's your accolades right 
there. And Mr. President, I'm going to quote you many times for 
the future hearing when you said we launched the first STEM 
college.
    Dr. Rathburn. We did.
    Chairman Hall. By golly, and that's something to brag 
about. Like Billy Dean said, ``It ain't bragging if you can do 
it.'' We've done it.
    That takes care of testimony for today, and now we'll have 
the questions. And I can take another minute and a half just to 
tell you a story about a guy in our hometown that his elevator 
didn't go all the way to the top, but he was smarter than 
people thought he was. They were always sending him for jobs. 
He'd go by the barbershop, and they'd say, ``Well, somebody 
needs you over at the hardware store.'' He'd go and they didn't 
need him at all, but he liked the attention. They sent him to 
the sheriff's office one day for a deputy sheriff's job. He 
said, ``Yes, we have an opening, but you have to answer some 
questions,'' like y'all are going to have to do here in just a 
minute. He said--asked him this first question, ``What two days 
of the week starts with a T?'' He said, ``Today and tomorrow.'' 
He said, ``Well, that's not exactly wrong, but it's not exactly 
right. What's one plus one?'' He said, ``One plus one, that 
makes an 11.'' He said, ``Well, that's not really wrong, but 
it's not exactly right. I'll ask you the third question. Who 
killed Abraham Lincoln?'' He said, ``I don't have any idea. I 
never heard of it.'' He went on back by the barbershop, and 
they said, ``Did you get a job?'' He said, ``Get a job nothing, 
they already got me working on a murder case.''
    We have questions that we have to ask, and we're going to 
be brief with them. I'll start out first with the first 
question.
    Dr. Marrett, it's good to hear about the success of the 
advanced technological education program in Texas, particularly 
the convergence technology center at colleges in Collin County. 
Half of Collin's campuses are in my district, and the other 
half's in my friend, Sam Johnson's. You describe in your 
testimony that there's an ATE solicitation for institutions 
that have either never submitted a proposal to ATE or have not 
submitted one in the last ten years. Could you tell us just a 
bit more about the solicitation and any other NSF, or National 
Science Foundation, opportunities in which community college, 
ours here, and the university representatives here today might 
take an interest or be well suited to pursue?
    Dr. Marrett. Thank you very much for the question. In fact, 
as I was preparing the material, I looked very closely at what 
had been the support for community colleges in Texas, by the 
National Science Foundation, and then thought that there really 
are other opportunities that should be expanded to the colleges 
that have not participated. What you described is something 
that we've recognized as an issue. We have programs, but we 
don't always get as full participation in those programs as 
would be desired. And for that reason, the advanced 
technological program that has said we want to target the 
places that have not come to the foundation for support. Now, I 
should note, as you know, what we do is always on a competitive 
basis, so coming doesn't by itself mean that there would be 
support, but that's one of the programs. We have others, and 
I'm more than willing to be the one--if anyone has questions 
about other programs that you can't get on our website, those 
people should get in touch with me. And I will tell you about 
other things that should be pursued.
    Chairman Hall. Thank you--thank you very much.
    And to any of the witnesses, there's been a lot of 
testimony, and we've heard a lot about students who had a 
difficult time transitioning from high school to college and 
then from a two-year institution to a four-year institution. We 
hear a lot about the difficulty moving from high school to 
college, but what are the reasons for the problem between a 
two-year and four-year institution and what are each of you 
doing in respective roles to alleviate this problem? How do you 
address that?
    Dr. Rathburn. Well, if I might start. And again, the unique 
situation because I spent 27 years at a two-year institution, 
and now I'm part of a university. A lot of it is conceptual. A 
lot of it is in the mindset of the students. We need to deal 
with students in a seamless environment. We talk about 
transitions from any educational level to another level. We 
need to get rid of the word ``transitions.'' It needs to be 
seamless. We are already seeing the work community colleges 
have done, a tremendous job with dual credit enrollment in high 
school. We want to see that same sort of transition from the 
Associate's level to the Baccalaureate level. It starts first 
and foremost with a great academic advisor the first time the 
student steps onto a postsecondary campus. Building a plan that 
takes them from the community college through the university at 
that very first step is absolutely critical. The second thing, 
as I mentioned in my testimony, is the vertical articulation of 
the curriculum itself. Too oftentimes we find students having 
to repeat classes or heading off on tracks at the community 
college that then sort of block them in the university 
environment. So the work that we're doing right now with our 
community college partners in this area is to make sure that we 
have not only seamless articulation, but also that we would 
have seamless education planning with our students as they 
transition postsecondary so that they can begin with the end in 
mind. And a lot of that is just the collaboration. I have to 
give all the credit in the world to the community college 
partners in this region for making that happen.
    Chairman Hall. I think that answers the question for me, 
and she's nudged me three times telling me my time was up.
    Ms. Johnson, I recognize you for five minutes or whatever 
you take.
    Ms. Johnson. Thank you very much. Let me thank all of you 
for your testimony. It's been very enlightening and, the more I 
listen, the more the question came to my mind because it's very 
clear that probably the community colleges get more students 
that need remediation than the four-year institutions. And we 
talk about partnerships and it occurred to me that I have a 
grandson that goes to a public school that was built by Samsung 
in Austin, at Manor, and he's going to have 23 hours of college 
work when he finishes high school. How do you develop these 
partnerships and do these partnerships help the students be 
more prepared for college when they arrive?
    Mr. Russell. Ms. Johnson, I'll attempt to answer that 
first. I think you may have said Manor ISD, and if you did, 
that might be a partnership with the group that I mentioned a 
little while ago, the Texas High School Project, that not only 
is doing STEM education, but also the early college high 
school. That is so important for all of our students to start 
early on with that dream of college, so really, college doesn't 
become that big a deal. It is just a normal expectation that 
you're expected to move forward to. Community colleges and 
school districts all throughout the state are working together. 
Texarkana College, for example, has dual credit opportunities 
to 19 school districts in this area. And it is very common for 
students to graduate with around 30 hours. Not only is that a 
great start, but if you multiply the cost for that 30 hours 
right now for Texarkana College, that's about a thousand 
dollars, is what that 30 hours is going to cost. You take the 
savings on that compared to where you're going, you're talking 
$15-$20,000 a year saving the family early on. Again, as we 
talked about that expectation of college is huge, and then 
going back to Dr. Ben Carson again, I was reading on the 
Internet last night about his momma just refused to allow him 
to fail. We've got to build that family environment around 
every single student. Whether they have a family or we become 
the family, that expectation in every student is going to go to 
their maximum benefit. We've got to make sure that expectation 
is surrounding every student.
    Dr. Johnson. If I may add, as I'm sure you recognize these 
problems are complex. There are a lot of different aspects that 
we could talk about. Let me add one that I haven't heard 
discussed much, and that is the difference between the needs of 
our top students and the needs of our average students.
    Our top students are oftentimes the ones who take advantage 
of the dual credit programs and who graduate from high school 
today with 30 or more hours. And those programs work very well 
for those top students, and it moves them through the pipeline 
quicker. And I think our transfer relationships with the 
universities with those students work quite well. I think the 
challenge that we're starting to recognize is that in STEM we 
need far bigger numbers. We can't compete with the top ten 
percent of our students if we're going to meet this challenge. 
And so the needs of that next 25 or 30 percent of our high 
school graduates are different. And one of those differences is 
that they tend to be less willing to move as a part of their 
pursuit in preparation for the rest of their life. So the 
geographical issues, which I mentioned in my testimony, are a 
bigger barrier for them and for their families than for our top 
students.
    One of the things we're trying to do to work with that is 
to build dual credit CTE, or career technical education, 
linkages so that more of our students graduate from high school 
with some college associated with a particular career path. And 
then, as we've talked about earlier today, that stackable 
career credential options make more sense to them because when 
they walk across the stage in high school they already have a 
certificate that is--that leads to employable skills. And they 
don't necessarily see college as something only for other 
students. They see it as part of their own future.
    Chairman Hall. Ms. Johnson, if either of us have other 
questions, and I have several other that I would like to have 
in the record, and for those on your side of the aisle, and on 
my side of the aisle, I think y'all would agree for us to 
submit those questions to you in writing. And if you'll give us 
your answer, your answer will be put back into the record, just 
as if they were here to ask the questions. Is that okay with 
you.
    Ms. Johnson. That's fine.
    Chairman Hall. All right. Without objection, that's the way 
we'll do it.
    [Appendix I:]
    Chairman Hall. So we'll close the second round panel and 
thank each one of you very much for your questions and for your 
answers and for your participation, for the time it took to get 
ready to come here, for some of you to drive here. You've been 
generous with your time and we're grateful to you.
    Let's hear it from the crowd for them.
    And while they are leaving the stage, the others--the 
witnesses will come forward. I'll have some encouragement for 
those of you who are not very good students out there. I always 
thought 70--anything over 70 was wasted in school for me, and I 
was a very poor student. I was a terrible student. My sister, 
my wife and my mother and all the other women in my family were 
teachers, and they were always embarrassed in my grades. As a 
matter of fact, one time I made four Fs and a D, and they said 
my father punished me for spending too much time on one 
subject. That wasn't really true, but it was almost true.
    But no matter how poor a student you are, just know that 
somebody out there cares. And the one who usually cares the 
most is the teacher. Thank God for teachers. And I always think 
about the poet who wrote about teachers and wrote about who 
were the leading people in people's life and said--and was a 
point to him, he said, ``I thank you, teacher, for all you've 
done for me. I thank you for reaching your hand into my heaped 
up heart and finding something there that no one else looked 
quite far enough to find.'' That's what teachers are for. And 
that's what I benefited from.
    We have our panel in place now so I didn't use up any of 
the time. I didn't throw away any time. Was it okay with you?
    Ms. Johnson. It's okay.
    Chairman Hall. Without objection, we won't erase that from 
the record. We'll leave it in there.
    The first round panel, I want to thank you and introduce 
it.
    Our first witness is Ms. Pam Kennedy, Vice President of 
Human Resources, CHRISTUS St. Michael Health System. 
Originally, Mr. Chris Karam, the President and CEO of St. 
Michael's, he was going to represent his organization today, 
but impending grandfather duties required his absence. So Ms. 
Kennedy graciously stepped in at the last minute and said she 
would take over and give the testimony, and we're going to ask 
her to do that. I want to stay with it. I know you're prepared 
for it, and we want you to do it.
    But Mr. Karam is here after all, and for official purposes, 
Ms. Kennedy will remain the official witness to provide 
testimony, but I'd like to ask you now to consent--or consent 
for Mr. Karam to join her as an accompanying witness for any 
questions following opening statements. Is that okay with you?
    Ms. Johnson. That's fine.
    Chairman Hall. All right. Without objection, Mr. Karam, 
please join the witnesses as they've all finished their opening 
statements. And conveniently, there's already a chair and a 
microphone for you over there.
    Our second witness is Mr. Myron Barnett, Human Resource 
Manager, International Paper. He began his career with Exxon 
USA in technical sales in 1988, which led him to his career 
with International Paper.
    And we're very happy to have you. And your people do visit 
me in Washington, and I always appreciate them.
    Our final witness for this panel is Mr. Denis Washington, 
Chairman, TexAmericas. In addition to his role with Texas 
Americans Center, he serves as chairman for the Board of 
Commissioners for the Housing Authority of Texarkana, Texas.
    As our witness should know, spoken testimony is limited to 
five minutes, after which the Members of the Committee will 
have five minutes each to ask questions. And we are trying to 
finish by high noon, 12 o'clock. We're on good time.
    I now recognize our first witness, Ms. Kennedy, for five 
minutes to present your testimony. Thank you.

                 STATEMENT OF MS. PAM KENNEDY,

               VICE PRESIDENT OF HUMAN RESOURCES,

               CHRISTUS ST. MICHAEL HEALTH SYSTEM

    Ms. Kennedy. Thank you, Congressman Hall and Ranking Member 
Ms. Johnson. We're glad to be here today and glad to have y'all 
here in our community.
    My name is Pam Kennedy. I'm the Vice President of Human 
Resources and Organizational Development at CHRISTUS St. 
Michael Health System, and I've been there for 24 years. And 
education is very near and dear to my heart. I do possess a 
Master's degree in science and Bachelor's in science, both of 
which I received in Texarkana, and I'm very excited that we 
have that education available to us here.
    So I'm very privileged to share my testimony today. I think 
it's important to talk about where I work to understand the 
importance of the STEM education. CHRISTUS St. Michael is the 
second largest employer in the Texarkana area. It's a central 
location in Northeast Texas that allows us to serve residents 
of Arkansas, Texas, Oklahoma, and Louisiana. We're a 300-bed 
acute care hospital with a 50-bed rehabilitation hospital. We 
have a cancer center, outpatient rehab center, imaging center, 
day rehab, wound care center and two medical plazas.
    The Sisters have been in the community for 95 years. And 
during this time, their mission has always been to extend the 
healing ministry of Jesus Christ. We offer comprehensive 
service ranging from specialized care for women, a Level III 
NICU, a Level III trauma center, comprehensive cancer and heart 
services, and we're a recognized leader for surgery, heart 
care, heart surgery and cancer care. With approximately 70,000 
emergency department visits in 2011, we are the regional leader 
in specialty care.
    The 50-bed CHRISTUS St. Michael Rehabilitation Hospital 
combines treatment and education to help patients gain 
independence that have been lost due to illness or injury. Some 
of those are occupational and speech therapy, cardiac/pulmonary 
outpatient rehab, respiratory care, case management, nutrition/
dietary and pharmacy.
    As the Sisters of Charity of the Incarnate Word for Houston 
and San Antonio joined congregations to form CHRISTUS Health in 
1999, the leadership provided enabled our ministry to flourish 
and be ranked among the top ten Catholic health systems in the 
United States.
    We're truly blessed to have the opportunities to reinvest 
in our community through capital expenditures for advanced 
diagnostic and treatment options in cancer, heart, neosurgical, 
neonatal, intensive care and health and wellness, as well as 
other areas.
    The STEM workforce is imperative to healthcare. It's 
imperative to our workforce, our community. Science and 
technology are the foundation of the healthcare industry. Going 
forward, technology will be a key driver in providing care, our 
reimbursement, electronic medical records, and sharing of 
information via the health information exchange. In addition, 
we currently have two robots, one of which is DaVinci that 
provides less invasive prostate and gynecology service with 
less recovery time, and a MakoPlasty robot, which provides 
minimally invasive knee and hip procedures.
    And definitely, it takes someone that knows about science 
and technology to be able to provide these services.
    Other services we offer are radiology, MRI, CT, ultrasound, 
linear accelerator, radiation therapy and sophisticated heart 
catheterization. So we need to be able to provide STEM 
education locally so students are prepared to easily advance 
when opportunities present themselves. Fortunately, we have two 
local colleges and universities that provide nurses and other 
allied health professionals to our community. We found we've 
been most successful by growing our own within the community 
because they're committed to remaining in the area after 
graduation. Having the local school districts teaching and 
providing educated students to these colleges and universities 
is critical to our workforce. Associates having degrees at 
various levels of our organization include, 40 percent with 
Associate degrees, ten percent Bachelor's degrees, three 
percent Master's degrees, and probably less than one percent of 
Doctorate degrees. And these all involve nurses, respiratory 
therapists, radiology technicians, laboratory technicians, 
healthcare administration, pharmacists, physical therapists, 
occupational therapists, physicists and dosimetrists. And we 
all know that math plays an integral part in those, too.
    For most of our Associate/Master degree programs, we can 
recruit within our area for the positions mentioned--above. 
Fortunately, Master's degrees in business, management and 
science are available as well. For the more advanced degree, 
there is normally out-migration upon completion of their 
degree. If the advanced degrees were offered locally, this 
would minimize the out-migration to other universities.
    If we can provide the STEM education early in a student's 
educational experience, we can minimize our out-migration to 
larger cities around us. We also want to position ourselves to 
be attractive for medical tourism, and we can't do that without 
advanced technology.
    We--at CHRISTUS St. Michael, we have a formal job shadowing 
program for local high school students. We participate in the 
Junior Achievement Board and activities to support young 
students, MASH program and on-site job fairs to the students so 
they have an opportunity to visit with healthcare professionals 
to plant the seeds early. To date, this has been a successful 
program, and we've had students attend from our local school 
districts here in Texarkana and surrounding areas. And this 
would not be possible if we were not able to provide the STEM 
education within our area. In order for CHRISTUS St. Michael to 
continue to remain viable and move forward in the industry, 
it's imperative we have STEM education available so that we can 
continue to recruit members of our community.
    In conclusion, without STEM education as our foundation of 
science and technology, we feel we cannot have achieved 
national recognition for Thomas Reuters 100 Top Hospitals in 
Modern Healthcare, Top 100 Best Places to work. STEM education 
has prepared our workforce in providing the skills necessary 
for the healthcare industry. Thank you for the opportunity to 
share today and for the STEM education. And I'd be happy to 
answer any questions you have at the appropriate time.
    [The prepared statement of Ms. Kennedy follows:]
    Prepared Statement of Ms. Pam Kennedy, Vice President of Human 
             Resources, CHRISTUS St. Michael Health System

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Hall. Thank you very much. And we'll be asking 
Chris to come up whenever he wants to. You've done a very good 
job for him. I'm a little surprised that you've been there 24 
years. I didn't know Chris and that bunch out there hired 
eight-year-old girls to work, but thank you for the good job 
you did.
    Chris, you want to come up and--Chris is waiting for his 
grandson to be born. And I had three sons, and I had to wait in 
that waiting room. And had a guy in there with me, the last 
son. He had been there two and a half or three hours. He smoked 
three packs of cigarettes. Every time the door opened, he'd run 
to the door and look in hopefully. Finally, they came in and 
they said, ``It's a girl.'' He said, ``Oh, thank God. I'd hate 
for any son of mine to have to go through what I've had to go 
through out here in this waiting room.''
    Chris, you got another day or so to wait, haven't you? Good 
luck to you. And God bless the little young one that's coming 
into this world.
    All right. I now recognize Mr. Barnett for five minutes to 
present his testimony.

    STATEMENT OF MR. MYRON BARNETT, HUMAN RESOURCE MANAGER, 
                      INTERNATIONAL PAPER

    Mr. Barnett. Good morning.
    Chairman Hall. Good morning, sir.
    Mr. Barnett. The Honorable Mr. Hall, The Honorable Ms. 
Johnson, I'd like to thank you for the opportunity today to 
appear before the Committee to discuss how a workforce skilled 
in science, technology, engineering and math, or STEM 
workforce, is critical to the success of International Paper's 
Texarkana mill.
    Our facility is situated on more than 1500 acres in Cass 
County, Texas. We currently employ 120 salaried employees and 
650 hourly employees who are represented by the USW, the United 
Steel Workers, and the IBEW, the International Brotherhood of 
Electrical Workers. Together, we donate more than $250,000 to 
our local communities in both Arkansas, and Texas, and provide 
community resources to the areas where our employees live and 
work. We also have an enormous impact economically on this 
region with our labor costs, our wood purchases, equipment 
purchases, maintenance and capital improvements. Our economic 
impact on this community totals nearly $300,000,000 annually.
    International Paper's Texarkana mill hires across a wide 
range of jobs--roles that are more physically attentive to 
those that are very sophisticated in terms of the production 
and maintenance positions that operate the very latest in paper 
manufacturing technology. Our salaried employees have expertise 
in engineering, accounting, communications and other 
professional areas. Even in our entry level positions, it is 
imperative that our employees have basic computer and 
technology skills and have knowledge of fundamental mechanical 
concepts commonly utilized in manufacturing.
    This is one of the reasons I'm glad to be here today. It 
gives me the opportunity to share with this Committee some very 
important points. First, our enthusiasm and appreciation for 
our current workforce at International Paper. Second, the fact 
that we are seeing an entire generation of highly skilled 
employees at all levels of our organization retire at a very 
rapid pace. And third, in light of this changing dynamic, the 
need for us to modify our recruiting strategies in a way that 
causes us to depend even more on our current educational 
systems to produce a well-educated workforce. This last element 
is essential to the current and future success of our business.
    We define our workforce both in terms of production and 
maintenance employees and engineering and management employees. 
As it relates to engineers, we recruit primarily chemical, 
mechanical, electrical and environmental engineers. While 
International Paper has a coordinated national recruiting 
program in which we participate, we focus on local recruiting 
efforts at Louisiana Tech, but I would also add that several of 
our engineers are graduates from Texas A&M. Over the years, 
including recently, we have been very successful finding 
technically trained engineers to help us meet our business 
needs.
    Regarding production employees, we're looking for 
individuals that have good computer knowledge and a basic 
mechanical aptitude. Maintenance mechanics must be skilled in 
areas like welding, pipe fitting and machining. Instrument 
electricians must understand motors, handling low, medium and 
high voltage, programmable logic controls in DCS technology.
    From a recruiting standpoint, we have been fortunate to 
find skilled production and maintenance employees from our 
local communities, but please understand that this is getting 
more and more difficult. As the human resources manager at our 
facility, I believe that in order to avoid a disconnect between 
the jobs that we all want to see kept in the United States and 
our workforce's ability to perform these jobs well, then we 
simply have to be more successful educating production and 
maintenance employees earlier during the high school years. We 
must establish more collaborative efforts between the 
manufacturing world and the world of education to expose 
students to manufacturing-oriented technology. As we evaluate 
hundreds of candidates for well-paying jobs, we don't regularly 
see the type of exposure to technology that makes for a skilled 
workforce that will have to compete in a global economy. And 
ladies and gentlemen, familiarity with video games and 
smartphones and the latest APs just won't cut it.
    At this time, the Texarkana mill has begun work with 
Texarkana College on this type of training and skills 
development effort. This is something we must do, but it can't 
just occur at the collegiate level. Our high schools will also 
play a critical role in helping inspire a future skilled 
workforce.
    Finally, I'd like to thank the Committee for allowing me to 
represent the employees of International Paper Texarkana mill 
in this forum today. This is a critical subject, and it will 
impact the success of both this community and our business. You 
see, our futures are truly interconnected. For we, indeed, are 
in this together. I appreciate your time, and thanks again for 
inviting me to be involved in today's hearing.
    [The prepared statement of Mr. Barnett follows:]
     Prepared Statement of Myron Barnett, Human Resources Manager, 
                   International Paper Texarkana Mill
    Chairman Hall and Congresswoman Johnson and Members of the 
Committee, I am Myron Barnett, Human Resources Manager, at 
International Paper's Texarkana Mill. I'd like to thank you for the 
opportunity to appear before the Committee today to discuss how a 
skilled STEM (Science, Technology, Engineering and Math) workforce is 
critical to the success of International Paper's Texarkana Mill. The 
Texarkana Mill is a part of International Paper, a company which 
currently employees 60,000 employees in more than 24 countries. 
International Paper is a global leader in the paper and packaging 
industry with manufacturing operations in North America, Europe, Latin 
America, Asia and North Africa.
    The facility that I'm representing in Texarkana is situated on more 
than 1,500 acres in Domino, which is a part of Cass County, Texas. In 
2012, we will celebrate our 40th Anniversary at the Texarkana Mill. We 
currently employ roughly 800 hourly and salaried employees. We have an 
enormous economic impact on this region. With labor, wood purchases, 
equipment, maintenance and capital improvements our economic impact in 
this community totals nearly $300 million annually. Most economists 
would say that you could multiply that figure times three or five in 
total direct and indirect economic impact. We are truly committed to 
the communities where our employees live and work. In addition to the 
economic impact we have in this area, we contribute more than $250,000 
to the local community through foundation grants, community giving and 
our annual United Way campaign.
    International Paper's Texarkana Mill hires for a wide range of jobs 
from manual labor to automated equipment operators to maintenance, 
mechanical and instrument electricians. We also have a large number of 
salaried employees with expertise in engineering, accounting, 
communications, human resources and other professional areas.
    At our most entry level positions, it's imperative that our 
employees have basic computer and technology skills and have knowledge 
of routine procedures within the manufacturing environment. Not only do 
they need these skills, but they also need training in critical 
thinking and problem solving. This is one of the reasons I'm glad to be 
here today--it gives me the opportunity to let this Committee know that 
we have a solid workforce at International Paper, but we definitely see 
areas where we could improve our recruitment efforts early in the 
education system. With an entire generation of skilled employees at all 
levels retiring at a rapid pace, an educated workforce is essential to 
the success of our business.
    We define our workforce both in terms of production and maintenance 
employees versus engineering and management employees. When we speak to 
our engineering employee base we're looking at chemical, mechanical, 
electrical, civil and environmental engineers. It's imperative that on 
the production and maintenance side that we're looking at individuals 
that have good computer knowledge, PLC's and are skilled from a 
technical standpoint. It is our company's preference to have production 
employees who have exposure to technology in areas like DCS 
(Distribution Control Systems), as well.
    From a recruiting standpoint, we have been fortunate to find 
employees from production, maintenance as well as our salaried 
employees locally and in surrounding areas. However, that is getting 
more and more difficult. Our company has a broad based recruiting 
effort at major universities across the country, but locally we focus 
much of our recruiting efforts at proven successful engineering schools 
like Texas A&M and Louisiana Tech.
    As the Human Resources manager at this facility, I'm believe that 
in order to avoid a disconnect between the jobs we want to the keep in 
the U.S. and our workforce's ability to perform these jobs, that we 
simply have to start educating production and maintenance employees 
earlier in the high school years. By doing this we expose students and 
potential employees to computers and technology as well as 
opportunities available to them after high school and college. Frankly, 
we don't see the type of exposure to computers and technology that 
makes for a skilled workforce happening at this time outside of video 
games, smart phones and apps.
    At this time, our company is not working with local colleges and 
universities on training programs, but it's something we'd like to get 
involved with. Not just at the collegiate level but also with local K-
12 schools that help inspire a future STEM workforce.
    I'd like to thank the Committee for allowing me to represent the 
800 International Paper employees here in Texarkana. This is a critical 
subject for recruitment and I appreciate your time and inviting me to 
be involved in today's hearing.

    Chairman Hall. And we thank you. You've had some problems 
with fires, have you not, in your home county, in that area? I 
heard, I think on TV this morning, our governor is headed back 
from Florida, to Austin to go to work for us--continue working 
for us to get some help from the federal government on that.
    And I'm--I have never--in my 88 years, I have never seen 
the likes of earthquakes, of fires, of hurricanes and tragedies 
like that. Maybe they just didn't print them before. Maybe we 
just didn't know about them and we had them, but I don't 
remember it being this bad. Do you? Any of you remember it 
being like the way it is here, the people, the deprivation, the 
hardship, the-- the injuries, the deaths of so many people. 
It's just amazing. Probably need to spend more time on our 
knees, by golly, but we are praying for your folks and--and 
pray that we get some help for them quickly. I know they need 
it.
    I now recognize, excuse me, our final witness for this 
panel, Mr. Washington, for five minutes.
    Mr. Washington, thank you.

    STATEMENT OF MR. DENIS WASHINGTON, CHAIRMAN, TEXAMERICAS

    Mr. Washington. And thank you, Mr. Chairman and appreciate 
the opportunity to speak on behalf of this testimony today.
    My name is Denis Washington. I'm the Chairman of the Board 
of Directors of the TexAmericas Center. As you may know, the 
TexAmericas Center was established in 1998 by the Texas State 
Legislature as a special purpose district. Its mission has been 
to redevelop excess military properties subjected to both the 
1995 and 2005 rounds of Base Realignment and Closure. Our goal 
has been to place the property at Red River Army Depot and the 
former Lone Star Army Ammunition Plant back into productive use 
with emphasis on job creation, job retention and increase in 
tax base.
    The organization's name used to be Red River Redevelopment 
Authority, but was changed in 2011, to TexAmericas Center to 
create a more--to create a more defined identity that attracts 
businesses interested both nationally and globally in our 
location.
    Our board is composed of appointees of the mayors of all 
the cities within Bowie County plus appointees by the Bowie 
County Commissioners or the County Judge. The 15 members of our 
board, our staff and the communities we serve have stood united 
in efforts to enhance the lives of our citizens with the 
preservation of existing workforce to attract new businesses.
    There is one figure in particular who has stood tall for 
all of us through the BRAC Process and related transition 
issues that have affected our community. Mr. Chairman, you have 
been a guiding light for our mission and our successes, and we 
are thankful for the significant amount of time and energy you 
devote to promote and serve this community's needs. Without 
you, the successes we enjoy so far would not be possible.
    Mr. Chairman and Ranking Member Johnson, on behalf of 
TexAmericas Center Board, I'd like to thank you for the 
opportunity to give this testimony, and thank you for being 
here in this brand new facility.
    I'd also like to share with you some accomplishments the 
TexAmericas Center has experienced in support of local 
workforce development. I would then like to share with you some 
of the things we are doing now in support of collaborative 
efforts with industry, schools and institutions of higher 
learning.
    Today, companies and government organizations located at 
TexAmericas Center boast nearly 1,000 jobs. Support for Red 
River Army Depot is a strong component of what TexAmericas 
Center does. 75 percent of the jobs reported there are 
attributed to both government and commercial support for the 
depot. While we have been a strong part of the depot, we 
understand we must insulate it for future rounds of BRAC.
    Roughly 25 percent of employees at TexAmericas Center work 
in one of 13 non-federal related companies we host. Staff 
reports one in three companies per month come to us seeking 
space. Whereas a significant number of our prospects once were 
searching for warehouse space, they are now seeking acreage to 
create industry, energy and technology-oriented businesses.
    During fiscal year 2011, 12 prospects expressed an interest 
in relocating or establishing their businesses' operations on 
TexAmericas Center's properties. These entities' projected 
investments were in excess of $1.8 billion and will create 
approximately 2500 jobs. While the site selection process 
continues with some, we realize that not only are they 
interested in land, water resources, utilities, infrastructure 
and transportation, but a desire to know more about our 
cultural activities, professional job opportunities for spouses 
and the local education system and curriculum. What was 
considered by our board members to be quite unique, it was 
entity's inquiry about our proximity to international schools, 
meaning a school that provided instruction to multiple 
languages and had a diversity of students and curriculum. Our 
CEO remarked to our board that, ``World class academic 
credentials are critical to international companies.''
    TexAmericas Center spends a great deal of time and energy 
pursuing new opportunities, but it is also appropriate to 
acknowledge our close working relationship and efforts with the 
City of Texarkana, Texas, the State of Texas Department of 
Economic Development and Tourism and Texas A&M University in a 
collaborative role in economic development. We continue to 
forge these relationships knowing that the entire community 
benefits from all our endeavors, including--business relocation 
and employees and families that choose to reside in our region.
    TexAmericas' acquisition of 12,000 acres of land formerly 
occupied military installations that supplied various war 
theaters are now being returned to the community to a different 
productive use. To ensure a reintroduction of the properties to 
the community, we realize the importance of teaming with our 
school and our institutions of higher learning. Let me share 
with you some of our recent initiatives. TexAmericas Center is 
a participant in the Pre-K-16 education initiative where STEM 
education pathways are a predominant focus. TexAmericas Center 
is also part of the Texarkana Market Analysis Project and 
Business Advisory Council at Texas A&M Texarkana. These 
networks help us to find ways to deploy business solutions and 
engage the academic community on ideas, including the STEM 
curriculum. The Dean of the Engineering College at A&M and 
TexAmericas Center's CEO has been in detailed discussions about 
the use of TexAmericas Center as a living laboratory for 
environmental issues ranging from support for the Army's over 
$2,000,000 environmental restoration program and TexAmericas 
Center's materials reclamation program, which we are 
demolishing the old facilities and reusing the materials. 
TexAmericas Center is working with a division of Texas A&M 
University College Station to deploy millions of dollars in 
surplus electronics recycling production equipment in a for-
profit model and working with the system's industrial alliances 
branch to bring high-tech manufacturing to our region. At the 
community college level and local school district level, 
TexAmericas Center's CEO has met with the President of 
Texarkana College and briefed the Texarkana Independent School 
District's science faculty and administration on collaborating 
on a life education center for both faculty continuing 
education and classroom enrichment. This past summer, 
TexAmericas Center initiated our first ever comprehensive 
summer internship program, which we introduced juniors, seniors 
in high school and college students to the world of work. We 
interned four students this year and plan to expand to six or 
more next year. Two of the students worked independently in the 
field doing water chemistry on the public drinking water system 
and their work efforts actually helped effectively implement 
our water compliance program this summer. Recently, TexAmericas 
Center collaborated with Texarkana College for the creation of 
a workforce training center. Branded Texarkana College at 
TexAmericas Center, this satellite campus is intended to 
support the academic and workforce training for Red River Army 
Depot, local commercial companies, as well as provide dual 
credit courses with the surrounding community high schools. The 
over 5,000 jobs of Red River Army Depot and its associated 
contractors can use the facility to develop their technical 
skills and progress towards degree completion.
    In our efforts to characterize the potential use of our 
property, we are dedicated to attracting compatible industries 
with our adjacent communities. We believe that being centered 
on job creation should not sacrifice the quality of life for 
our neighbors.
    I believe that TexAmericas Center can be a stabilizing 
force for the economic future of Northeast Texas and Southwest 
Arkansas. In order to achieve that mission, the education 
system and job opportunities combined with economic development 
must share the a vision of the needs for our workforce and for 
those industries and companies we wish to attract.
    As I conclude, I would like to share a couple of thoughts. 
First, STEM is an integral part of our success independent in 
our children and this community. Those existing skill sets and 
those being developed within our workforce will be vital to our 
mission in trying to persuade prospective companies to relocate 
or expand operations in this region. In preparing our students 
for the challenges ahead, the greater the opportunity they are 
provided to have hands-on experiences, the more likely they 
will gravitate to a productive and rewarding career. We see 
this nexus as a key to a community's long-term future.
    So on behalf of the board, I thank you for your service, 
your kind attention for making the trip to Texarkana and 
support for STEM education.
    [The prepared statement of Mr. Washington follows:]
   Prepared Statement of Mr. Denis Washington, Chairman, TexAmericas
    My name is Denis Washington and I am the Chairman of the Board of 
Directors of the TexAmericas Center.
    As you may know, TexAmericas Center was established in 1998 by the 
Texas State Legislature as a special purpose district. Its mission has 
been to redevelop excess military properties subjected to both the 1995 
and 2005 rounds of Base Realignment and Closure. Our goal has been to 
place the property at Red River Army Depot and the former Lone Star 
Army Ammunition Plant back into productive use--with emphasis on job 
creation, job retention, and increase in the tax base.
    The organization's name used to be Red River Redevelopment 
Authority, but was changed in 2011 to TexAmericas Center to create a 
more defined identity that attracts interested parties both nationally 
and globally to our location.
    The Board is composed of appointees of the Mayors of all the Cities 
within Bowie County plus appointees by the Bowie County Commissioner's 
Court and County Judge. The 15 members of our Board, our staff and the 
communities we serve have stood united in an effort to enhance the 
lives of our citizens with the the preservation of the existing 
workforce and to attract new business.
    There is one figure in particular who has stood tall for all of us 
throughout the BRAC Process and related transition issues that have 
affected our community . . . Mr. Chairman, you have been a guiding 
light for our mission and our successes, and we are thankful for the 
significant amount of time and energy you devoted to promote and serve 
this community's needs. Without you, the successes we have enjoyed so 
far would not be possible.
    Mr. Chairman and Ranking Member Johnson on behalf of TexAmericas 
Center Board, I would like to thank you for the opportunity to give 
this testimony, and thank you for being here today in this wonderful 
new building.
    I would also like to thank Superintendent Paul Norton for the 
Texarkana Independent School District's hospitality today.
    Mr. Chairman, I would like to share with you some of the 
accomplishments TexAmericas Center's has experienced in support of 
local workforce development.
    I would then like to share with you some of the things we are doing 
now in support of collaborative efforts with industry, schools and 
institutions of higher learning.
    Today, companies and government organizations located at 
TexAmericas Center boast nearly 1,000 jobs.
    Support for Red River Army Depot is a strong component of what 
TexAmericas Center does . . . 75% of the jobs reported here are 
attributed to both government and commercial support for the Depot. 
While we have been a strong partner with the Depot, we understand that 
we must insulate it from future Base Realignment actions.
    Roughly 25% of employees at TexAmericas Center work in one of the 
13 non-federal related companies we host. Staff reports that 1-3 
companies per month come to us seeking space. Whereas a significant 
number of prospects once were searching for warehouse space, they are 
now seeking acreage to create industrial, energy and technology-
oriented businesses.
    During FY 2011, twelve prospects expressed an interest in 
relocating or establishing their business operations on TexAmericas 
Center's property. These entities' projected investments were in excess 
of $1.8 billion and could create approximately 2,500 jobs. While the 
site selection process continues with some, we realize that not only 
are they interested in the land, water resources, utilities, 
infrastructure, and transportation, but desire to know more about 
cultural activities, professional job opportunities for spouses, and 
the local educational system and curriculum. What was considered unique 
by our Board Members, was one entity's inquiry about our proximity to 
international schools--meaning a school that provided instruction in 
multiple languages and had a diversity of students and curriculum. Our 
CEO recently remarked to our Board that, ``World class academic 
credentials are critical to international companies.''
    TexAmericas Center spends a great deal of time and energy pursing 
new opportunities, but it is also appropriate to acknowledge our close 
working relationship and efforts of the City of Texarkana, TX, the 
State of Texas Department of Economic Development and Tourism and the 
Texas A&M University system in their collaborative role in economic 
development. We continually forge these relationships knowing that the 
entire community benefits from all our endeavors including but not 
limited to new business relocation, and the employees and families that 
choose to reside in our region.
    TexAmericas Center's acquisition of 12,000+ acres of land formerly 
occupied military installations that supplied various war theaters, are 
now being returned to the community for a different productive use. To 
ensure a wise re-introduction of the properties to the community, we 
realize the importance for teaming with our schools and institutions of 
higher learning. Let me share with you some of our recent initiatives.

    1.  TexAmericas Center is a participant in the PK-16 education 
initiative where STEM education pathways are a predominant focus.

    2.  TexAmericas Center is also part of the Texarkana Market 
Analysis Project and Business Advisory Council at Texas A&M Texarkana. 
These networks help us find ways to deploy business solutions and 
engage the academic community on ideas, including the STEM curriculum.

    3.  The Dean of the Engineering College at A&M and TexAmericas 
Center's CEO have been in detailed discussions about the use of 
TexAmericas Center as a living laboratory for environmental issues 
ranging from support for the Army's over $200M environmental 
restoration program and TexAmericas Center's materials reclamation 
program where we are demolishing the old facilities and reusing the 
materials.

    4.  TexAmericas Center is working with a division of Texas A&M 
University in College Station to deploy millions of dollars in surplus 
electronics recycling production equipment in a for-profit model and 
working with the System's industrial alliances branch to bring high 
tech manufacturing to our area.

    5.  At the Community College and local School District level, 
TexAmericas Center's CEO has met with the President of Texarkana 
College and briefed the Texarkana Independent School District's science 
faculty and administration on collaborating on life sciences to include 
the development of an outdoor education center for both faculty 
continuing education and classroom enrichment.

    6.  This past summer, TexAmericas Center initiated our first ever 
comprehensive summer internship program where we introduce juniors/
seniors in high school and college students to the world of work. We 
interned four students this year and plan to expand to six or more next 
year. Two of the students worked independently in the field doing water 
chemistry on the public drinking water system and their work efforts 
actually helped effectively implement our water compliance program this 
summer.

    7.  Recently TexAmericas Center collaborated with Texarkana College 
for the creation a workforce training center. Branded ``Texarkana 
College @ TexAmericas Center'', this satellite campus is intended to 
support the academic and workforce training for Red River Army Depot, 
local commercial companies as well as provide dual credit courses with 
the surrounding community High Schools. The over 5,000 employees of Red 
River Army Depot and its associated contractors can use the facility to 
develop their technical skills and progress towards degree completion.

    In our efforts to characterize the potential use of our property, 
we are dedicated to attracting compatible industries with our adjacent 
communities. We believe that being centered on job creation should not 
sacrifice the quality of life for our neighbors.
    While some may say that education is abandoning academia for 
workforce education, it is our business leaders that share a desire for 
a more work-ready product. Current Texarkana, Texas City Manager, Dr. 
Larry Sullivan, in his former position as Texarkana Independent School 
District Superintendent, once solicited feedback from a group of 
businessmen and women. He asked them to tell him about the skills they 
desire to see in the product they were turning out. How can we better 
prepare them before they arrive at your door? To take it a step 
further, how do we attract, retain and convince those students to 
return to Texarkana should they go away for college and complete their 
degrees?
    I believe that TexAmericas Center can be a stabilizing force in the 
economic future of Northeast Texas and Southwest Arkansas. In order to 
achieve that mission, the education system and job opportunities 
combined with economic development must share the vision about the 
needs for our workforce and for those industries/companies we wish to 
attract.
    As I conclude, I would like to share a couple of thoughts.
    STEM is an integral part of the success of our children and this 
community. Those existing skill sets and those being developed within 
our workforce will be vital to our mission in trying to persuade 
prospective companies to relocate or expand their operations in this 
region. In preparing our students for the challenges ahead, the greater 
the opportunity they are provided to have hands--on experiences, the 
more likely they will gravitate to a productive and rewarding career. 
We see this nexus as a key to a community's long-term viability.
    So, on behalf of our Board, I want to thank you for your service, 
your kind attention for making the trip to Texarkana to show your 
support for STEM Education in Action: Preparing for Jobs of the Future.

    Chairman Hall. Mr. Washington, we thank you. And I 
personally thank you for your input in holding two groups 
together where both groups benefited for Bowie and for the area 
here. Y'all did a good job. And you named a lot of people. The 
Secretary of the Army happened to be Pete Geren at that time, a 
gentleman from Fort Worth. And I don't know why I knew 
everybody's grand-daddy, but his father was--was one of my best 
friends, and Pete was the Secretary of the Army the two years 
we were battling to see if we could keep that land out there 
for Bowie County. And you succeeded, and I thank you personally 
for all you did. Thank you----
    Mr. Washington. Thank you for your effort.
    Chairman Hall. Now, I think that is our witnesses. We're 
going to have questions now, and we're limited to five minutes. 
I think we have--we're doing pretty good time wise.
    I'll start off with the first question. And I thank all of 
you for being here, preparation, travel time and all that. And 
my first question will be to any witness who wants to answer. 
What role do each of your organizations play in helping to 
inspire our nation's youth about the importance of STEM 
education? What do y'all do and do you encourage your staff to 
serve as mentors to their children's classrooms or offer tours 
of your facilities so children can learn about how a medical 
center runs or--or how engineering plays a role in the creation 
of paper for the paper mill? Gentleman there. Any of you that 
want to answer that, take a shot at it. What are we doing to 
enroll kids and encourage them to come on in and be a part here 
and then be successful?
    Mr. Washington. Well, Mr. Chairman, I'll begin with our 
initial program at TexAmericas Center involving the internship 
program. You know, we realized that our mission continues to 
change on a daily basis. Our whole system involves them on a 
regular basis. And I believe that with the environmental 
cleanup that we have available, the partnerships that we have 
with the universities, that we can be able to employ the use of 
some of those students to be able to expand the research they 
need to do, as well as to provide some of the manpower we need 
to accomplish our mission.
    Chairman Hall. Are there others, others who want to take a 
shot at that.
    Mr. Karam. Mr. Chairman, at CHRISTUS St. Michael, we are 
very involved in the community with Junior Achievement, as well 
as we have a fairly robust student volunteer program. It's 
amazing how many of God's children eventually become our 
associates. And it's great exposure. A lot of children want to 
know what that's like and that gives them the opportunity by 
being a junior volunteer. We also have a shadowing program, 
where students can come through the organization. We do 
multiple tours of the hospital so that students can come 
through and see the different areas so they think about their 
future. And then we also work with some of the area 
organizations when they actually go ahead and actually follow a 
profession through different programs and see if that's 
something they might be interested in.
    Chairman Hall. You know, during the last three years, and 
as we were pushed into the arena and you were carrying out the 
request that Congress had made, I had some whispers around that 
you were fearful that you were overly educating those and that 
they wouldn't be whole and complete students when they got to 
the end of the road. Do you remember that, that there was some 
suggestions of that.
    Mr. Karam. Well, I--I do remember that----
    Chairman Hall. I never was overeducated myself. Nobody 
ever----
    Mr. Karam. Well, we never felt like that was really an 
issue. I think the concern was that people would maybe find 
they weren't challenging enough.
    Chairman Hall. Yeah, yeah. Any others care to----
    Mr. Barnett. Yes, Mr. Chairman----
    Chairman Hall. Yes, sir.
    Mr. Barnett. --I guess I would add that we at the 
International Paper facility in Texarkana, we have an 
internship program for engineers that we just reinvigorated the 
last 12 months. We're for 12 months out of the year, we have a 
student who is either a chemical engineer or mechanical 
engineer, normally is working during an off semester or during 
the summer at the mill doing engineering work side by side with 
our employees. And so it's a great opportunity for them 
financially and experientially. In addition, I've been 
involved. As a matter of fact, just last year, I went in to 
speak at the Liberty-Eylau High School and talked to a 
classroom about leadership and what it means to be a leader, 
not just in the workplace, but in society at large because we 
need that. Our country needs that in both realms.
    Chairman Hall. I thank you. My time's expired.
    Ms. Johnson, I recognize you.
    Ms. Johnson. Thank you very much. Thanks to all of you for 
being here. I know that population wise this is not the fastest 
growing area, but yet you have thriving businesses. And, of 
course, we'll always have a need for health facilities. So I'm 
interested in how early you get involved, and I think some of 
that's been answered with internships, in attracting young 
people to be anchored to the area with the proper background 
and STEM education and their excellent education facilities 
here. And to do that, you almost have to touch the parents, of 
course, and the K through 12 teachers. What activities do you 
have that would be inclusive of students coming through the 
primary and secondary education and their parents and teachers? 
Anybody.
    Well, we all say that you've got to involve parents. You 
are in businesses that must continue to attract qualified 
people in the STEM areas for your success. And it's in an 
area-- now, in my area, we'd like to share some people. We are 
growing. We are the fastest growing area in the country in the 
Dallas-Fort Worth area, but we know that as we grow other areas 
are losing some population. And yet, we want to be certain that 
when products, whether they be for healthcare or paper, we want 
to feel certain that they are coming from areas that are 
equipped with the best minds as well, not that we have any--we 
don't have any kind of over supply of good minds just because 
we have a lot of people. But I'm very concerned about the 
survival and the quality survival of areas that have a 
diminishing population, and how you are beginning to address 
that or how you have addressed that beyond the traditional 
involvements, which must include teachers' experience in what 
the workplace is like, rather than just the classroom, and our 
parents understanding the changing demands on the educational 
process and how important it is. And I just thought you 
mentioned some internships. Does that include teachers? Give me 
an idea of how you are fertilizing the whole area to make sure 
you have a supply of qualified people.
    Ms. Kennedy. I think one of our biggest things that we've 
done is working with Junior Achievement. And we actually have 
people from the hospital who go out and teach classes with the 
young students, like elementary type students, teaching them 
math, reading to them and engaging them at a very early age. We 
also have our on-site job fairs, and we do invite the teachers 
to come and participate as part of that so that they understand 
what healthcare offers. I mean, it's more than just nurses. 
There's a lot of different venues that they can go into, and 
the teachers then can take that back to the classroom and share 
that appropriately.
    Ms. Johnson. Um-hmm. And the tremendous changes that are 
taking place with technologies in the delivery of healthcare, 
too.
    Ms. Kennedy. Well, everything now is automated. We continue 
to grow more toward technology, and I think as Mr. Barnett 
stated, talking about smartphones, and I mean, there's so many 
things in healthcare you can actually do with a smartphone now.
    But it is challenging because we have to keep up with that 
technology and have the people to be able to do that to advance 
us forward in the healthcare industry.
    Mr. Karam. Ms. Johnson, we also have 2100 associates, 300 
physicians on our medical staff. We go out in the community, do 
regular community health screenings and other activities, 
involved in almost every health-related fundraiser out there. 
And what I see the biggest exposure for young people is that 
ripple effect. Those folks recognize that while they're talking 
to those folks they respect and they talk about healthcare as a 
career and that's where we get a lot of people excited about 
coming into the healthcare career.
    Ms. Johnson. Um-hmm.
    Mr. Washington. I believe one thing, too, that we have to 
realize is that in order for--it really depends upon how we 
sell our community. And one of the greatest things that has 
happened to us has been the introduction of Texas A&M 
University in our community and opportunities passed on to 
students to stay at home but also for continuing education. 
Many times we're looking at new businesses that are coming to 
the TexAmericas Center, they're people that are coming in are 
interested in our education system. They're looking at the 
culture things that's available to them.
    So it's really a community as a whole that we must sell to 
entice them to feel that this is a very good place for their 
kids. What happens to those that graduate from college and 
decide to come back here, I think those are going to be the 
challenges that we can't go against in places like Dallas and 
Houston and things that young people desire, but one thing we 
do offer is a great place to live. We offer a good education 
system to continue their postgraduate work, as well as to live 
in this area. So those are things that we must harp on to try 
to attract and retain our students to come back and our 
children to come back here to live.
    Ms. Johnson. Thank you very much. Let me just comment that 
what I've heard since I've been here this morning, I have been 
very, very impressed. First, I've seen a very clean city that 
seems to have all of the ingredients, including the arts and--
and the job picture and the diversity of the educational 
offering and the healthcare. I would say thank you for even 
accepting--did we ask or did they ask us or whatever--for us 
being here because I see some uniqueness, and I want to applaud 
this entire community for that. And I think that as long as you 
continue that, you won't have to worry about too many of them 
not coming back. Thank you.
    Chairman Hall. Eddie Bernice and I thank you, and thank you 
for those kind remarks because these are the same people and 
this is the same area when we were about to lose Red River, we 
talked the Chairman of that Committee into coming here and 
their vote, out of a group of nine, they had six votes too 
close us. At that time, all your State representatives, some of 
the representatives from Arkansas, and us urged the Chairman 
just to come here and see the facility. And I'll tell you what 
did it for him. When he drove that ten miles from where you 
leave the highway and you get over there, they were probably 
10,000 people there with signs saying, ``God bless you, Mr. 
Chairman, thank you, Mr. Chairman, God bless you for coming to 
Bowie County,'' and that just turned him around. He changed his 
mind then when he saw what kind of people, and that's what 
people's for. That's the thrust of good people that cared. And 
they're here today because they care. And this is a good 
meeting. And we will have other questions to ask you and submit 
them to you. And Eddie Bernice can offer those, and she can 
offer her people on her side of the aisle the opportunity to 
ask questions if they need to. They will go into the record, 
and we'll see that that's done. This has been a good recording. 
It's been a good attendance. You've given good answers. I hope 
we've asked proper questions.
    We're honored to be here, but the round of questions is 
completed, and we've completed them on time. And I don't know 
if it's over budget or under budget, but we have completed 
them. We thank you, and we thank all the witnesses on both 
panels. And thank Eddie for her attendance here and for her 
questions. And Members that are not in attendance may have 
additional questions. We'll keep the record open for two weeks 
for additional comments from the Members. And once again, thank 
you very much. The witnesses are excused and this hearing is 
adjourned.
    [Whereupon, at 11:48 a.m., the Committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Cora Marrett, Deputy Director, National Science 
        Foundation

Question submitted by Chairman Ralph Hall


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Responses by Mr. James Henry Russell, President, Texarkana College

Question submitted by Chairman Ralph Hall

Q1.  How do both two-year and four-year institutions cope with the 
fast-paced changes in modern technological advances and the specialized 
requirements for many 21st century technical jobs when it comes to 
keeping the curriculum current to meet the needs of employers?

A1. This would be a great topic for a Doctoral Thesis. I will attempt 
to share a few things that are going on with the Texarkana PK-16 
council that attempt to move in this direction. The most important 
thing you can do to ensure that all educational institutions are 
keeping in tune with the needs of employees is for there to be great 
communication between all parties involved. In many communities, the 
four year institution does not get along that well with the two year 
and neither one talks very much to the Pk-12 institution. Also, no one 
even considers involving the business sector in this discussion. This 
system of a lack of communication used to be the case in this area too. 
While we are certainly far from perfect, I think the Texarkana area has 
moved ahead of the pack in the area of fostering great PK-16 
collaboration that is reaching out to the business community, listening 
to what they have to say, and designing the curriculum to meet their 
needs. Not only are all parties involved in the design stage, but they 
are also involved in the process along the way to monitor and adjust. 
This can best be shown by a tour of the STEM PK-16 alignment that 
exists in Texarkana between the Texarkana Independent School District, 
Texarkana College, Texas A&M Texarkana, and various industries 
throughout the area. A real need for employees in the STEM area has 
driven the PK-16 education delivery model in this area. The PK-16 
institutions provide business and industry properly educated and 
trained employees. This model is now being moved to other areas 
including workforce education. Again, I believe the key is for open and 
honest communication and feedback to be constantly occurring between 
PK-16 institutions and the business and industry sector. It sounds 
easy. I think in most places you will find that it does not happen 
often and openly.

Q2.  Which partnerships that you have established with local, regional, 
state, federal government and non-government entities have proved to be 
the most challenging to form? Why were they challenging, and how were 
you able to overcome them?

A2. The partnership with the most potential for success in the near 
future is our brand new <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fbafb8bbaf9e83ba969e8992989a88">[email&#160;protected]</a> Site. This is a branch location 
of Texarkana College located adjacent to the Red River Army Depot 
Headquarters and on TexAmercias property. TexAmericas is the entity 
that has received thousands of acres from the most recent base 
realignment and closure process. This facility is meant to be able to 
quickly adjust to the training needs of the army depot or the next 
industry that TexAmericas is recruiting to bring in to their available 
sites. TC at TexAmericas required partnerships to be formed between the 
Federal Government, U.S. Army, State of Texas, TexAmericas Center, 
Texas A&M Texarkana, Texarkana College, and various other governments 
and agencies. The TexAmericas center is a win- win for all concerned. 
We are poised well for the next BRAC (if there is one). We are also 
prepared to meet the needs of the next business wanting to locate on 
this site and needing trained employees and to train government workers 
on the latest methods and techniques to improve quality and efficiency 
and to provide a safer workplace. The challenges are still there. This 
is a huge investment by Texarkana College and is not yet making a 
profit which is currently the most challenging part of this venture. 
The training provide by the TexAmericas Center is the spark needed to 
encourage innovation and new business along with keeping an existing 
entity (Red River Army Depot) operating efficiently. The challenge is 
finding funding when everyone is facing a shrinking budget to 
adequately fund workforce development. Everyone knows training is the 
key to future success, but it is hard to spend money in these times. We 
feel like this will be a bragging point in the very near future and a 
model for a successful partnership between education, industry, and 
government.

Q3.  Beyond teacher training, please expand on what your institution is 
contributing to K-12 education, particularly to middle school youth. 
Does your institution provide faculty and students as mentors to local 
classrooms?

A3. Texarkana College is providing low cost dual credit opportunities 
throughout our entire 1,800 square mile service area in north east 
Texas. The cost for a three hour college class is roughly $85.00. A 
typical student can easily graduate from high school with twenty to 
thirty hours of college credit for as low as $1,700 to $2,550 of an 
investment by the family. Anyone that has a student off at college can 
quickly do the math and see that the family has saved thousands of 
dollars in tuitions, fees, room and board by the efficient dual credit 
opportunities that are available. Texarkana College partners with local 
PK-12 institutions to start at a young age establishing the realization 
that a college education is much more than a dream. It is a reality. 
While Texarkana Colleges reaches out to students in middle school 
through programs such as the Federal Trio, we actually believe that you 
must start even younger. We host events at the Texarkana College that 
bring elementary, middle, and high school students to the campus. We go 
to these campuses for various visits and motivational talks. We 
emphasize that what a student does when they are in any grade has an 
impact on what they will be doing when they are twenty five years old. 
We firmly believe that it is critical for a young person to establish 
the belief and hope at a very young age that they will one day be a 
college graduate. Once a child has that vision and that hope, we 
believe the greatest obstacle has been overcome. The Kids at Hope 
National Model is a great one for working with youth to establish that 
vision of the future. In this model, a youth at an early age will 
establish measurable goals in the area of Education and Career, Home 
and Family, Community Service, and Hobbies/Recreation. Once those 
positive mental images are put in place at an early age, it is hard for 
anyone to ever remove them. I am a firm believer that the greatest 
thing a student needs in our country today is HOPE for a bright future. 
Once they have that there are plenty of opportunities available to make 
it happen.
Dr. Brad Johnson, President, Northeast Texas Community College

Questions submitted by Chairman Ralph Hall

Q1.  How do both two-year and four-year institutions cope with the 
fast-paced changes in modern technological advances and the specialized 
requirements for many 21st century technical jobs when it comes to 
keeping the curriculum current to meet the needs of employers?

A1. We depend on the cooperation of business and industry through 
various means. The most localized is the use of advisory committees. 
These teams are made up of local private business Members who typically 
employ persons with the skills we are training. These individuals keep 
us informed about their needs, new technologies they are adopting, and 
the appropriate standards of learning needed to deliver trained 
individuals to their workforce.
    We also depend heavily on national industry groups which often 
validate the particular skills associated with various programs of 
study. Sometimes these groups actually accredit our programs by 
examining our curriculum and the learning outcomes of students, and 
then granting us the right to use their external validation in our 
recruitment efforts. Other times the industry groups simply provide 
information and we are responsible for meeting those standards 
voluntarily.

Q2.  Which partnerships that you have established with local, regional, 
state, federal government and non-government entities have proved to be 
the most challenging to form? Why were they challenging, and how were 
you able to overcome them?

A2. Multi-institutional collaborations have proven most difficult 
recently. While all public institutions are eager to work together in 
principle, the local political realities often create competition which 
most of our college leadership in East Texas have not learned how to 
completely overcome. When combined with the frequent appearance of 
other challenges which distract from a multi-college collaboration, it 
results in the belief on the part of many that the extra effort 
required to make such collaborations work is simply not worth the 
headaches.
    I would say we have not yet overcome many of these challenges. Our 
own collaboration with Texas A&M University--Texarkana is one major 
exception to my comments here. That partnership has resulted in a 
University Center on the campus of Northeast Texas Community College 
which delivers baccalaureate degrees to our local community, more than 
one hour from the TAMU-T main campus.
    I would have to say the reasons this one works include 1)TAMU-T has 
stationed full time staff on our campus who live locally and are highly 
motivated to keep the programs viable; 2) university leadership has 
chosen to make the project a priority and so is personally involved; 
and 3) my college has no desire to offer baccalaureate degrees 
ourselves, but believe strongly that access to such degree options are 
part of our mission. So all of us work hard to make it succeed.

Q3.  Beyond teacher training, please expand on what your institution is 
contributing to K-12 education, particularly related to middle school 
youth. Does your institution provide faculty and students as mentors to 
local classrooms?

A3. We do not have a program for this purpose per se. However, we share 
instructors and other staff with the TAMU-T Education program to meet 
the needs in our local area for teacher training.
    NTCC does provide a large number of ``pipeline'' activities to 
students as young as elementary school which are designed to raise the 
awareness of parents and children of the need to go to college and of 
the preparation in Junior High and High School needed to be successful 
in college. Examples of these activities include campus visits for 
college activities like theatre productions, guest speakers, campus 
tours, and visits to particular programs like Dental Hygiene or 
Welding. The college also has a program in partnership with all 11 of 
our regional ISDs in which each graduating high school senior is 
mentored through the college admission process, assisted with selection 
of a college major, and all other necessary steps. The result is that 
every graduating senior in our region has been admitted to college and 
has a ``post-high school'' plan.

Q4.  Please expand on the SMART (Science, Math, and Related 
Technologies) Girls and the WISE (Working in Science and Engineering) 
Guys programs.

A4. These programs are targeted to at-risk young people and designed to 
raise their interest in science and math careers, as well as other 
careers which might go unnoticed by the typical boy or girl. Students 
participate in various activities (for example, robotics contests) 
which demonstrate the practical uses of math and science, as well as 
providing exposure to people who work in these career areas.

Q5.  Please explain the award winning ``Regional Advanced Manufacturing 
Academy''. What return on investment are you expecting to achieve in 
the number of new jobs andadditional income for the community.

A5. This program, known locally as ``RAMA,'' brought together the 
training capabilities of three regional community colleges--Texarkana 
College, Paris Junior College, and Northeast Texas Community College, 
as well as the financial and logistical assistance of Workforce 
Solutions of Northeast Texas. The program was built on the training 
needs requested by the region's largest industrial employers and served 
incumbent workers, as well as persons seeking entry into this field.
    When an employer had a need, they requested the training, assisted 
in determining the particular curriculum they wanted, and released 
their employees to participate in the training. Areas of training 
expertise were divided among the 3 colleges and the courses were 
delivered by which ever college was most well-equipped/staffed in that 
subject area. This meant that the training delivered to a company in 
one college's service area might be delivered by a different college.
    The strategy worked quite well from the perspective of business and 
industry. The employer feedback was strongly positive. However, the 
sudden and precipitous economic downturn resulted in area industries 
reducing their workforce dramatically. Those remaining on the job were 
working much overtime and the companies were reluctant to release 
workers from the job to take training. So when the term of the initial 
project was completed, the project was suspended for the time being.
    All three colleges have indicated our interest in reestablishing 
this model, with some modifications, when industry indicates they are 
again able to make employees available for training.

Q6.  Please describe any challenges or particular successes you have 
encountered in dealingwith Federal dollars allocated through grants for 
your institution.

A6. First, let me say that our college is grateful for the federal 
grant support we have received in the past, both through direct grants, 
as well as money flowing through the State of Texas (Texas Workforce 
Commission, etc.). These funds have certainly gone to worthy projects 
and have improved the lives of our region's citizenry.
    However, since you ask, I must acknowledge that the bureaucratic 
burden that comes with federal grants (and to a lesser degree, state 
grants) often saps much-needed funds and reduces their impact. 
Specifically, the rules are usually quite inflexible. But the reality 
on the ground is quite fluid and requires a high-degree of flexibility 
in today's economic environment. We often find that federal program 
directors do not understand our business, thus we live with rules that 
are irrelevant or even silly, when compared to the intended purpose of 
the grants.
    And lastly, the ``accountability'' that is required of us often 
amounts to ``busy work'' rather than actually assuring the public that 
the intended purpose of the grant is accomplished. Sometimes we already 
have accountability requirements from another federal agency or from 
the State of Texas which assure the public we are maintaining fiscal 
integrity. But the federal accountability method will differ enough to 
necessitate a second administrative report.
    So the reality on the ground is that every programmatic dollar 
(money actually spent delivering the educational purpose) ends up 
costing $6 dollars (after the federal bureaucracy takes its cut and I 
have to pay staff at the college to track a seemingly endless sets of 
data). The federal government would get far more for the same 
investment if it simply gave the money directly to the colleges, and 
required a particular outcome (``Here's $50,000--produce 20 certified 
electricians '').

Using Electrical Trades as an example, consider this:

    <bullet>  To have a program in electrical trades we have already 
met the State of Texas' standards and the program curriculum has been 
approved;

    <bullet>  To keep the program open we are already required to track 
our graduates and assure they get jobs in the fields they trained for;

    <bullet>  To keep our institutional accreditation, we are already 
required to prove our instructors are appropriately trained/educated;

    <bullet>  To participate in federal financial aid, we must already 
prove that our students are making satisfactory progress toward their 
educational goals;

    <bullet>  And annually, we are required to have an independent 
audit to assure that we spent money in legally stipulated ways--in 
other words, that we did what we agreed to do when we accepted the 
funds.
    Why must we prove many of these things (and much more) to the 
federal government--again--and in slightly different ways? The 
differences in oversight requirements are important because they mean 
we must go through the entire reporting process as if we hadn't already 
done it for the state or the Dept. of Education. So the resulting 
growth in administrative staff adds cost, slows our responsiveness, and 
limits resources that could be put into the classroom.
    In closing, our task is so important to the long-term economic 
viability of our nation, and local resources are so hard to come by, 
that we will continue to be grateful for any federal assistance we can 
receive. These comments are only an observation ``on the ground'' of 
the fact that federally-administered programs are a particularly 
expensive way to get things done.
Dr. C. B. Rathburn, III, President, Texas A&M University-Texarkana

Questions submitted by Chairman Ralph Hall


Q1.  How do both two-year and four-year institutions cope with the fast 
paced changes in modern technological advances and the specialized 
requirements for many 21st century technical jobs when it comes to 
keeping the curriculum current to meet the needs of employers?

A1. This is a major challenge for higher education in terms of cost for 
the acquisition and maintenance of the technologies as well as the cost 
of training and retraining faculty and staff to make effective 
utilization of these resources. The disconnection between academia and 
the workplace is a major concern especially as it relates to the 
utilization of various technologies. In academia we are too often 
forced to ``demonstrate'' the technology as opposed to really training 
the student use these technologies in a productive environment. The 
answer is a simple one--expand and incent higher education, the student 
and the employer to expand cooperative education and internship 
opportunities. Through these opportunities the students are afforded 
the opportunity to work in real time and real production with the 
current technologies of the chosen profession.
    In addition to providing access to the current technologies of the 
field, internship and cooperative education opportunities provide a 
direct link for academia from a curricular perspective to the demands 
of today's employers. This link is critical in insuring that the proper 
input is acquired and utilized from the employers to mold and guide 
curricular decisions. Neither academia nor the workplace should dictate 
curriculum as each party has their own unique and valuable role. 
Academia should push the employers to explore new uses of technology 
and new methods of operation that can lead to enhanced quality and 
productivity. The employers should push academia to demonstrate, 
evaluate and guarantee that the graduates completing a degree have the 
required knowledge, skills, abilities and soft skills to immediately 
provide value to the workplace.
    At Texas A&M University-Texarkana we are proud of the involvement 
and impact of our curriculum advisory committees including our overall 
Business Advisory Committee. Leaders from the regional business 
community give of their time and expertise to annually advise the 
university on our program offering, curriculum alignment as well as the 
quality of our graduates in the workplace. This counsel is critical to 
the success and growth of the university and the future success of our 
students.

Q2.  Which Partnerships that you have established with local, state, 
regional, federal government and non-government entities have proved to 
be the most challenging to form? Why were they challenging and how were 
you able to overcome them?

A2. Educational partnerships across state lines have become much more 
difficult to develop and maintain in recent years. Texas A&M 
University-Texarkana is located in a bi-state community with the state 
lines of three other states within 50 miles. Due to the lack of 
national accreditation and certification criteria we have found it 
difficult to meet the needs of the students and prospective employers 
simultaneously.
    No field is this more challenging than public education. Variance 
in teacher certification requirements across state lines has made the 
operation of teacher education programs extremely challenging when you 
have students planning to teach in a variety of states. Recently the 
state of Arkansas overhauled their requirements for principal and 
superintendent certifications and removed the reciprocal arrangement 
with Texas to recognize certification from another state. This means a 
student who completes our administrative certifications at Texas A&M 
University-Texarkana cannot be employed in the Texarkana, Arkansas 
school district five miles to the east. The lack of national 
reciprocity in teacher and administrative certification as we find in 
medicine and engineering will have a profound negative impact on both 
universities and school districts.
    This ``state to state'' competition is present in a number of 
fields. To address this challenge the university proposed a plan to 
create a crosswalk based on curricular alignment between the two state 
administrative certification requirements and then provide additional 
course work necessary to address the gaps in the alignment. While this 
plan is in the discussion stages we are optimistic of success.

Q3.  Beyond teacher training, please expand on what your institution is 
contributing to K-12 education, particularly related to middle school 
youth. Does your institution provide faculty and students as mentors to 
local classrooms?

A3. Though programs such as Club 21:11, the university is engaged in a 
variety of stay in school efforts at the middle school level that focus 
on addressing the organization, motivation and character building 
aspects of middle school education. Although not in middle school, our 
Professional Development School operated at Westlawn Elementary School 
is a prime example of the integration of higher education and public 
education. Our master teacher students along with full time university 
professors are assigned to this school on a daily basis. The university 
professor supervises the master teacher students who have full time 
classroom assignments in a yearlong ``medical model'' teacher 
certification effort similar to a residency. The master teachers gain 
valuable classroom effectiveness skills while the students benefit from 
state of the art curriculum and classroom instructional strategies. In 
the end we gain a better prepared teacher and a better equipped and 
motivated student. At present we are exploring the possibility of 
transiting this model of master teacher training to the middle school 
STEM academy as well as the Perot STEM Academy at Texas High School.

Q4.  Please expand on the Texas Middle School STEM Academy

A4. The Middle School STEM academy is the logical extension of the well 
recognized and very successful Martha and Josh Morris Engineering and 
Mathematics magnet school. The middle school STEM academy continues the 
educational philosophy of an entire comprehensive curriculum taught in 
the language of engineering and math. The middle school STEM academy 
articulates the elementary programs at the Morris school into the Perot 
STEM academy at Texas High School and the STEM College at Texas A&M 
University-Texarkana to produce a world class Pre-K through 
baccalaureate degree vertically aligned STEM curricular program.
Ms. Pam Kennedy, Vice President of Human Resources, CHRISTUS St. 
        Michael health System

Questions submitted by Chairman Ralph Hall


Q1.  1.What percentage of your workforce is being provided by the local 
colleges?

A1. Approximately 40%, including ADN nurses (2 year).

Q2.  What is the average length of employment for your locally educated 
workforce verses those you have to recruit from outside the community?

A2. Approximately ten years plus or minus, compared to 2-5 years of 
those whom we recruit outside of the community. I attribute it is much 
longer because of the associate's family ties within the community.

Q3.  If not for the local workforce being supplied by the community 
colleges and the close proximity of Texas A&M-Texarkana, would CHRISTUS 
St. Michael still be operating in Texarkana?

A3. Yes, I strongly believe we would still be operating in Texarkana, 
but recruitment would be much more challenging and costly to recruit 
from outside of our community if we did not have local colleges and 
Texas A & M-Texarkana.

Q4.  For your organization, would you believe that you have job 
opportunities available, but no talent to fill them, or a combination 
of both?

A4. Normally, the challenge of recruiting hard-to-fill positions is 
because of the needed experience from comparable organizations for 
administrative level type positions. However, there are technical/
medical positions such as Physicist, Dosimetrist, and IT specific 
positions that require a higher level STEM type education that we have 
only begun to focus on within the last few years in our community.

Q5.  What do we as a Nation need to do to solve this problem?

A5. Mandate educational opportunities for STEM in the early, formative 
years to instill the importance of the future demands. By mandating, we 
as a Nation will need to provide funding to ensure this is 
accomplished.

Q6.  Please expand on CHRISTUS St. Michael's job shadowing program for 
local high schools.

A6. The increase in healthcare opportunities combined with the 
decreasing number of individuals pursuing careers in healthcare, has 
led to staffing shortages in many areas, including Nursing, Therapy, 
and Laboratory. In an effort to encourage High School and College 
students to enter healthcare, CHRISTUS St. Michael established a Career 
Exploration--Job Shadowing Mentorship Program. The program design 
started in July 2008, and kicked off in January 2009. The program was 
established to provide an opportunity for participants to explore, with 
first hand observation, the area(s) in which they have an interest. The 
goal is to encourage individuals to not only enter the healthcare 
industry, but to also assist them in choosing which area they want to 
pursue, if they have not already decided. To date there have been 
approximately 250 participants, that have shadowed in various areas, 
including, Women's & Children's, Radiology, Laboratory, Respiratory, 
and Physical Therapy to name a few.
    The long-term goal of the Career Exploration/Job Shadowing 
Mentorship Program is to add value to our community with regard to 
addressing future healthcare needs and employment, particularly those 
where we are experiencing staffing shortages. Through Service 
Excellence and Stewardship the program plants the seeds with High 
School and College students, tomorrow's workforce, with minimal local 
resources. Our goal is to ``grow our own,'' to reinforce the CHRISTUS 
Health Mission and Vision, and to extend the healing ministry of Jesus 
Christ, throughout the Ark-La-Tex region by providing these young 
students with a meaningful experience. We want to share not only with 
patients and visitors, but with other Members of the community and 
surrounding areas the incredible, deep rooted, culture that CHRISTUS 
St. Michael has. It also allows them the opportunity to experience 
first-hand why we have been chosen as one of the Best Places to Work in 
Texas five years in a row (ranking #6 in large industries in 2010), #3 
in the nation by Modern Healthcare Top 100 Best Companies to Work in 
Healthcare, and most recently Becker's Review Top 100 Best Places to 
Work in Healthcare!
    According to Forbes, Texarkana is predicted to increase 28.57% in 
GMP by 2012 making Texarkana the second fastest growing small metro 
area in the country. To meet the service and employment needs of the 
community, and to ensure that CHRISTUS St. Michael can continue to 
offer a substantial line of current and future services, the Career 
Exploration/Job Shadowing Mentorship Program was developed and 
implemented to meet these needs through ``planting the seeds'' of the 
future workforce early on. To date, CHRISTUS St. Michael has partnered 
with three local High Schools, and several Colleges and Universities 
within a 300 mile radius to work with students that are either enrolled 
or in the application process to participate in healthcare programs.
    As a means to enhance the program, CHRISTUS St. Michael has offered 
an on-site Career Fair the past four years for area students. The first 
year, five High Schools attended (170 students) and approximately 
twenty-one departments within CHRISTUS St. Michael participated. To 
expand on this, in February 2010 a second Career Fair was held and a 
total of twelve High Schools attended (450 students), nineteen 
departments and one College participated. In 2011, we expanded the 
program exponentially. These events give us an opportunity for the 
students to experience our facility and to educate them about the 
variety of healthcare occupations that exist. There is also an 
opportunity to educate them on our benefits, general salary 
information, and tuition reimbursement and/or scholarship 
opportunities. The feedback has been extremely positive and many 
students have expressed an interest in returning to CHRISTUS St. 
Michael for employment opportunities.

Q7.  What other opportunities does CHRISTUS offer for young students? 
Are they mostly geared toward high school students, or do you also work 
with elementary and middle school youth?

A7. Another enhancement to the program is our involvement in the local 
Junior Achievement program. Our Human Resources Recruiter was elected 
to their Board last summer and has been actively involved in the 
programs offered by Junior Achievement to 2nd and 8th graders at local 
elementary and middle schools in our area. The program lasts for a 
total of five weeks (one visit per week) and the topic is ``How does a 
Community work?'' It covers what some of the different businesses are 
that exist in a community, and we discuss the needs and services they 
provide and why they are important. The classes also cover how to 
manufacture a product, and how money flows within a community. This 
exposure also gives them an opportunity to meet someone from CHRISTUS 
St. Michael to begin ``growing our own'' early!
Mr. Myron Barnett, Human Resource Manager, International Paper

Questions submitted by Chairman Ralph Hall

Q1.  What percentage of your workforce is being provided by the local 
colleges?

A1. Less than 5%

Q2.  What is the average length of employment for your locally educated 
workforce versus those you have to recruit from outside of the 
community?

A2. Don't have this data

Q3.  If not for the local workforce being supplied by the community 
colleges and the close proximity of Texas A&M  Texarkana, would IP 
still be operating in Texarkana?

A3. Yes

Q4.  For your organization would you believe that you have job 
opportunities available, but no talent to fill them, or a combination 
of both?

A4. We have a number of positions open, but must search outside the 
Texarkana area to fill a number of production and maintenance jobs due 
to the lack of qualified candidates in the area.

Q5.  What do we as a nation need to do to solve this problem?

A5. Put a strong focus on STEM education beginning with our primary 
aged children and continuing through High School.

Q6.  Do you find that the difficulty IP is having with recruiting local 
employees to fill the production and maintenance side of your company, 
which requires computer and technical skills, is due to the fact that 
there are not enough graduates to fill your positions or is it that 
local schools are not providing the types of employee specific needs of 
the Texarkana Mill? If the latter, what efforts is IP taking to rectify 
this problem?

A6. At this time, we see that there aren't enough graduates to fill a 
number of the positions open at the mill. Currently, we are working on 
a partnership with Texarkana College and have begun funding STEM 
education programs through our foundation dollars.
Mr. Denis Washington, Chairman, TexAmericas

Questions submitted by Chairman Ralph Hall


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               <all>



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
